<html>
<title> - THE PATH FROM LEO TO MARS</title>
<body><pre>[Senate Hearing 112-808]
[From the U.S. Government Publishing Office]



                                                        S. Hrg. 112-808
 
                       THE PATH FROM LEO TO MARS

=======================================================================



                                HEARING

                               before the

                         COMMITTEE ON COMMERCE,

                      SCIENCE, AND TRANSPORTATION

                          UNITED STATES SENATE

                      ONE HUNDRED TWELFTH CONGRESS

                             SECOND SESSION

                               __________

                           SEPTEMBER 12, 2012

                               __________

    Printed for the use of the Committee on Commerce, Science, and 
                             Transportation





                  U.S. GOVERNMENT PRINTING OFFICE
82-565                    WASHINGTON : 2013
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; DC 
area (202) 512-1800 Fax: (202) 512-2104  Mail: Stop IDCC, Washington, DC 
20402-0001



       SENATE COMMITTEE ON COMMERCE, SCIENCE, AND TRANSPORTATION

                      ONE HUNDRED TWELFTH CONGRESS

                             SECOND SESSION

            JOHN D. ROCKEFELLER IV, West Virginia, Chairman
DANIEL K. INOUYE, Hawaii             KAY BAILEY HUTCHISON, Texas, 
JOHN F. KERRY, Massachusetts             Ranking
BARBARA BOXER, California            OLYMPIA J. SNOWE, Maine
BILL NELSON, Florida                 JIM DeMINT, South Carolina
MARIA CANTWELL, Washington           JOHN THUNE, South Dakota
FRANK R. LAUTENBERG, New Jersey      ROGER F. WICKER, Mississippi
MARK PRYOR, Arkansas                 JOHNNY ISAKSON, Georgia
CLAIRE McCASKILL, Missouri           ROY BLUNT, Missouri
AMY KLOBUCHAR, Minnesota             JOHN BOOZMAN, Arkansas
TOM UDALL, New Mexico                PATRICK J. TOOMEY, Pennsylvania
MARK WARNER, Virginia                MARCO RUBIO, Florida
MARK BEGICH, Alaska                  KELLY AYOTTE, New Hampshire
                                     DEAN HELLER, Nevada
                    Ellen L. Doneski, Staff Director
                   James Reid, Deputy Staff Director
                     John Williams, General Counsel
             Richard M. Russell, Republican Staff Director
            David Quinalty, Republican Deputy Staff Director
   Rebecca Seidel, Republican General Counsel and Chief Investigator



                            C O N T E N T S

                              ----------                              
                                                                   Page
Hearing held on September 12, 2012...............................     1
Statement of Senator Nelson......................................     1
Statement of Senator Hutchison...................................     3

                            Opening Remarks

John Grunsfeld, Associate Administrator/Astronaut, Science 
  Mission Directorate, NASA......................................     2
Fuk Li, Ph.D., Mars Exploration Directorate, NASA Jet Propulsion 
  Laboratory.....................................................     4
John Grotzinger, Ph.D., Mars Science Laboratory Project 
  Scientist, California Institute of Technology..................     4

                               Witnesses

Steven W. Squyres, Goldwin Smith Professor of Astronomy, Cornell 
  University.....................................................     9
    Prepared statement...........................................    11
Charles F. Kennel, Ph.D., Distinguished Professor of Atmospheric 
  Science and Director Emeritus, Scripps Institution of 
  Oceanography, University of California San Diego and Chair, 
  NRC's Space Studies Board, Division on Engineering and Physical 
  Sciences, National Research Council, The National Academies....    13
    Prepared statement...........................................    17
Jim Maser, President, Pratt & Whitney Rocketdyne.................    22
    Prepared statement...........................................    24

                                Appendix

Hon. John D. (Jay) Rockefeller IV, U.S. Senator from West 
  Virginia, prepared statement...................................    45
Response to written questions submitted by Hon. Bill Nelson to:
    Steven W. Squyres............................................    45
    Charles F. Kennel, Ph.D......................................    47
    Jim Maser....................................................    49
Response to written question submitted by Hon. Amy Klobuchar to:
    Charles F. Kennel, Ph.D......................................    48
    Jim Maser....................................................    52


                       THE PATH FROM LEO TO MARS

                              ----------                              


                     WEDNESDAY, SEPTEMBER 12, 2012

                                       U.S. Senate,
        Committee on Commerce, Science, and Transportation,
                                                    Washington, DC.
    The Committee met, pursuant to notice, at 2:05 p.m. in room 
SR-253, Russell Senate Office Building, Hon. Bill Nelson, 
presiding.

            OPENING STATEMENT OF HON. BILL NELSON, 
                   U.S. SENATOR FROM FLORIDA

    Senator Nelson. Good afternoon. I was waiting to see the 
arrival time of Senator Hutchison. And so what we will do is go 
ahead and get some of the introductions done so that when she 
arrives, we will be able to get right into the meat of the 
hearing.
    I want to thank everybody for being here in what is going 
to be an extraordinary hearing. It is interesting that today is 
the 50th anniversary of President Kennedy's speech at Rice 
University where he said, ``We choose to go to the Moon.'' And 
that bold challenge would be met within 7 years.
    And when Neil stepped down from the Lunar Module ladder 
onto the surface, it was one of the country's proudest and most 
riveting moments. It was an event that reminded us how triumphs 
can unite the people of our nation. And indeed, I happened to 
be a lieutenant at the time abroad, and I saw that unification 
of the people of planet Earth at that time.
    And we reflected on such triumph earlier this summer when 
Curiosity landed on Mars, and we reflected on the ingenuity and 
talent that is required for those extraordinary achievements a 
few weeks ago when sadly we heard of Neil Armstrong's passing. 
And so tomorrow morning at the National Cathedral, the country 
will bid farewell to one of our most cherished heroes. And it 
is with his spirit in our hearts and President Kennedy's vision 
in our minds that we look today at NASA's overall exploration 
program.
    The whole world was captivated by the harrowing landing of 
the rover. I have seen it. It is as big as a Volkswagen. And we 
continue to be fascinated by the amazing high definition images 
that we are getting back from the rover's landing site.
    We are fortunate today to have members of Curiosity's team 
here to kick off our hearing with a mission update. We will be 
briefed by Dr. John Grunsfeld, the Associate Administrator for 
NASA's Science Mission Directorate; Dr. Fuk Li, the Director 
for the Mars Exploration Directorate at NASA's JPL; Dr. John 
Grotzinger, Professor of Geology at Caltech and the project 
scientist for Curiosity's mission.
    And after that update, we're going to move on to our 
witness panel, where we will be examining the progress of 
NASA's exploration program under the NASA authorization bill 
that was passed in 2010, particularly as it relates to a future 
human mission to Mars. So our witnesses include Dr. Steven 
Squyres, the Goldwin Smith Professor of Astronomy at Cornell 
and Chairman of the NASA Advisory Council; Dr. Charles Kennel, 
Chair of the National Academies Space Studies Board and 
Director and distinguished Professor Emeritus at Scripps 
Institution of Oceanography at the University of California at 
San Diego; and Mr. Jim Maser, President of Pratt & Whitney 
Rocketdyne, a company that does a lot of things but specializes 
in rocket propulsion technologies.
    And so I want to welcome all of you here today. Dr. 
Grunsfeld, would you like to introduce your team?

               OPENING REMARKS OF JOHN GRUNSFELD,

               ASSOCIATE ADMINISTRATOR/ASTRONAUT,

               SCIENCE MISSION DIRECTORATE, NASA

    Dr. Grunsfeld. Certainly. Let me--I will introduce to my 
left Dr. Li, and he will work from there. But I just want to 
make a quick opening comment. First of all, thank you very 
much, Senator Nelson, for inviting here because this is a 
spectacular result that we have a successful landing of 
Curiosity on the surface of Mars.
    My hopes and dreams for this mission were even just the 7 
minutes of terror leading up to a successful landing would be 
as significant for kids today as Neil Armstrong's landing on 
the Moon, of America's landing on the Moon, was for me that led 
me into science and studying math, and eventually to become an 
astronaut, and now I'm associate administrator at NASA.
    Those famous words of President Kennedy said we do things 
not because they're easy, but because they are hard. And when 
in the cause of science we challenge our teams to do things 
that are not only a little bit hard, but things that many would 
say are impossibly hard, I think that's what brings out the 
best in scientists, engineers, technicians, and people who are 
excited about exploration. And I think there is no more 
qualified team and no more team that is more excited about 
exploration right now than the team that is driving a Rover on 
the surface of Mars, the Curiosity rover.
    And with that, I would like to introduce Dr. Fuk Li, who is 
the manager of Mars Exploration at the Jet Propulsion Lab.
    Senator Nelson. All right. Before I turn to Senator 
Hutchison, Dr. Li, would you introduce some of your team that 
is here in the audience?
    Dr. Li. Thank you. There are two additional members of the 
Curiosity rover team who are with us besides John and I. Rob 
Manny here, who he is the chief engineer for the project, and 
he was responsible for resolving a lot of technical problems we 
have on the spacecraft and development. And this is Beth Dool, 
she is the lead of our telecom uplink. When we try to talk to 
the rover and ask it to do what it's going to do in a certain 
day, she's always involved.
    Senator Nelson. So she is the driver. Thank you.
    Let me turn to my colleague. And before I do, let me say 
that this may well be the last Science and Space hearing for 
Senator Hutchison because unfortunately she has chosen to 
retire after a very long and distinguished public service 
record. I can tell you that I mourn the fact that she is 
retiring because Kay and I have demonstrated how you pass 
legislation when it should not be partisan, and where there was 
no daylight between the two of us.
    And thus in the midst of what was tumult back in 2010, we 
were able to pass the NASA authorization bill unanimously out 
of the Senate, first unanimously out of this committee. And 
then with a three-quarters vote out of the House of 
Representatives at 11 at night on the last night of the 
session. And so I cannot say enough good things about Kay and 
her leadership and her passion for America's space program.
    So with that, let me turn to you, Senator Hutchison.

            STATEMENT OF HON. KAY BAILEY HUTCHISON, 
                    U.S. SENATOR FROM TEXAS

    Senator Hutchison. Well, thank you very much, Mr. Chairman. 
And I am so looking forward to hearing from you. I had actually 
hoped we might have one more hearing because I do want to look 
toward the future, and I think one of the things that we've 
been missing here is the protection of the future, not just 
always going as far as we have to go right now, but making sure 
that we look to the future.
    And when the Curiosity landed, I saw for the first time 
really in a long time that enthusiasm of America just seeing 
the precision of that long, long trip and the landing. It 
showed that we really can conquer so much more. And so I wanted 
to have this hearing. The chairman wanted to have this hearing 
to highlight what is the future, and maybe we can seek out one 
more hearing.
    But we have been a wonderful partnership in assuring that 
NASA is not undercut so severely that we cannot keep our 
preeminence.
    And if you would just give me one moment, I want to say 
that this also is the 50th anniversary of President Kennedy's 
speech at Rice University, where he laid out more of his 
wonderful vision. And I would just like to take one little 
quote from there. He said, ``But why some say the Moon? Why 
choose this as our goal? And they may well ask, why climb the 
highest mountain? Why 35 years ago fly the Atlantic? Why does 
Rice play Texas?'' And then he goes on to say, ``We choose to 
go to the Moon. We choose to go to the Moon in this decade and 
do the other things not because they are easy, but because they 
are hard.''
    And that inspiration that President Kennedy gave us must be 
continued, and that is--it has been my goal, and I hope that as 
we are looking toward that next step, beyond low-Earth orbit, 
on to other parts of outerspace, including Mars, that you will 
help us fashion that vision.
    So thank you, Mr. Chairman. Thank you for all you do in 
this regard. And I will end by saying that tomorrow we are 
going to honor the first man who stepped on the Moon, and I 
know we both plan to be there because Neil Armstrong stood up 
last year when he, too, was worried that we might be 
sacrificing the future for the present. And as shy as he was 
about publicity, he took a stand, and that, I think, made a 
huge difference in the course that we have been able to take.
    So with that, I want to hear from our witnesses. Thank you.
    Senator Nelson. Dr. Li?

OPENING REMARKS OF FUK LI, Ph.D., MARS EXPLORATION DIRECTORATE, 
                 NASA JET PROPULSION LABORATORY

    Dr. Li. Thank you, Mr. Chairman, for giving us this chance 
to talk to you and give you a short update on where we with 
Curiosity. But before we do that, I would like to say my deep 
gratitude for your support that has allowed us to develop, to 
fly, and to land this rover a little more than a month ago.
    The support that we have gotten in the past decade and we 
are getting now has created three significant capabilities in 
the Nation. The first is a set of strong Mars scientists. Many 
of these scientists are working in universities across the 
Nation, and many of them are working with John in the day-to-
day operation of the Curiosity rover, telling it where to go 
and what to do.
    The second is to put in the preeminent position for the 
technological know-how how to land on a different planet. 
Looking back to the soldier in the Rover that landed in 1997, 
it was about 20 pounds. Today's Curiosity is about 2,000 
pounds, the size of a small car. This increasing capability is 
really unique to America.
    Finally, it also put us at the forefront of advanced 
robotic technologies to allow us to operate a rover millions of 
miles away from Earth in a Martian environment that is cold. 
Sometimes we do not know what it is, and sometimes it is 
unfriendly to us.
    So with that, I would like to just go back to the landing 
night and show a video that is about 2 minutes long, and show 
you the landing event. We were clearly very excited and wanted 
to share that excitement one more time.
    When Curiosity went into the Martian atmosphere, it was 
enclosed in a capsule to protect it. When it went into the 
atmosphere, it moved at about 13,000 miles per hour. The 
kinetic energy of that capsule is roughly equal to several 
hundreds Formula One race car going around at 200 miles an 
hour.
    The protective shield slowed the capsule down, and this 
video starts the next day when we started to deploy the 
parachute. Can I--I am going to start a video. Dr. Li. This is 
a picture taken by the orbital overhead.
    So with that, I would like to turn the time over to Dr. 
Grotzinger. He is a professor of geology at Caltech and the 
project scientist that leads the science team for this mission. 
An early results show--to me they show a lot of promise for 
future exciting science discovery that can only be made when we 
are on the surface of Mars and interacting with the material on 
Mars. John?

    OPENING REMARKS OF JOHN GROTZINGER, Ph.D., MARS SCIENCE 
     LABORATORY PROJECT SCIENTIST, CALIFORNIA INSTITUTE OF 
                           TECHNOLOGY

    Dr. Grotzinger. Thank you, Fuk. Thank you very much, 
Senator Nelson and Senator Hutchison, for this chance to 
present some additional science and some fun pictures.
    Here is our landing site; you see it way out in space. And 
you can see a lot of big craters around there. But the one that 
we chose to go to has a mountain in the middle, Mount Sharp as 
it is known, named after a pioneering planetary geologist.
    And if you go in closer, you can see now Mount Sharp. The 
area represented by the crater is a little bit larger than the 
area of the State of Connecticut and a little bit smaller than 
the State of New Jersey. So it is an enormous area that we have 
potentially for exploration.
    But our goal--you can see the landing ellipse just right 
here, and then that is the spot that we landed on. And our goal 
is to do some exploration around in this area for the next 
month or two, and then begin the long trek that will eventually 
take us into the foothills and up the flanks of Mount Sharp, 
where we believe there is evidence for water that has once 
interacted there and could be the very target we are looking 
for.
    To give you a sense of how bold this goal is, you can see 
Mount Ranier there, which is smaller than Mount Sharp. Mount 
Sharp, its elevation is greater than any mountain in the lower 
48 States, including Mount Whitney. And you can see it is just 
a tad lower than the highest mountain in the U.S., Mount 
McKinley there.
    This is looking after we landed, one of our first color 
images that really gives a sense of just how dramatic the 
landscape is. This is looking toward the crater rim, not 
towards Mount Sharp, but the crater rim. And we love this photo 
because those of us that teach geology out in the West often 
take students to the Death Valley area. And you look out across 
toward the mountains, you see a little L.A. smog coming in 
there, and it just looks really familiar. It just seems like a 
very comfortable place for us, and we love this landing site.
    Here is kind of a fun outreach instrument. We have a laser 
on board that the public has really enjoyed. They have looked 
forward to this a lot. It allows us to reach out maybe 10 feet 
away and zap a rock, and it tells you whether or not it is the 
right rock to go up and spend some more time doing more 
detailed work. And, in fact, when we do that, this is what you 
see. There is a little scale bar here on the right, so it is 
just a couple of millimeters. And the dot that you see here is 
less than a millimeter, and if you have felt the laser, if it 
actually zapped you, it might sort of tickle you a little bit. 
So that is what actually happens.
    But what the rest of the world thinks is happening is this. 
And, you know, they are just having a great time. The people, 
if you look on the Internet, they just love this mission, and 
they are really enjoying it.
    This to me is really one of our great moments. This is our 
first footprints on Mars. You look back to the upper right. 
This is where the rover landed. These are the one, two, three, 
four marks made by the thrusters as they impinged on the 
surface and blew the soil away, and here you see wheel tread 
marks where they begin. And it tells us about our future on 
this mission and where we landed successfully. We are not 
driving away from that place. It might be the last time we ever 
see it that well, we get further away. But we will never forget 
this image.
    Here we are now looking toward Mount Sharp, which is our 
ultimate destination. It is a 360 degree panorama, and you can 
see the same one, two, three, four blast marks there. And the 
elevation change from this point up to the top of Mount Sharp 
that is blown up here is on the order of three and a half miles 
high. So it is a tremendous goal that we are trying to strive 
toward here in exploring the--at least the base of that 
mountain.
    And when you get up close, this is another one the images. 
It is my favorite. I believe it is probably the team's favorite 
image. If you look at the foothills, which are about six miles 
away, there is a little black rock right here, which is blown 
up in this box here. That rock, as you sense, the size of the 
Rover. When we get there one day, we are not going to be able 
to look back toward it. We see it now, and we imagine our 
future. What will happen as we blaze a trail going up these 
valleys and look around the corner.
    The team is just filled with wonder, and the people that 
are following the mission are filled with wonder as we look 
toward this spectacular area.
    And finally, I want to finish with an image that is just 2 
days old. We have 17 cameras on this mission, and one of them 
reaches out from the end of the arm and can look back toward 
the rover. And the principal investigator who built that 
camera, Ken Edgid, put a penny on the rover because geologists 
do this all the time on Earth.
    We need a scale, we pull it out of our pocket, we rest it 
gently on the rock, and we take a picture of it. And this is 
standard practice for us. But this symbol for us has so much 
depth to it. It is the great thing that this country has 
achieved through your support to be able to have this mission 
succeed and even be able to see this image.
    And so I, on behalf of the 406 scientists and all of the 
engineers, probably 1,000 people currently working on this 
project, want to thank you for the support.
    And the last thing I want to point out is something that 
history will take note of, is that the year here is 1909. The 
penny was embedded with the anticipation that we would launch 
in 2009, and we were not able to. And we hit a lot of obstacles 
along the way, and we needed support. And it came from you, and 
it came from NASA, and we are ever so grateful for that because 
we got where we wanted to be. So thank you.
    Senator Nelson. Tell us about when you put the packages 
together and you send it up there, how long do you say it takes 
to transmit to Mars?
    Dr. Li. Right now it takes about 15 minutes to go one from 
Earth to Mars and from back.
    Senator Nelson. Tell us about how you go about planning 
what that package of instructions is going to tell the rover.
    Dr. Li. OK. Maybe, John, you can describe one day in the 
life of a rover.
    Dr. Grotzinger. OK. One day in the life of the rover starts 
with us working on Mars time, and because Mars has a slightly 
different orbit, it is 24 hours, 39 minutes. We have to adjust 
every day. So the times team gets jet lagged every day by 
another 40 minutes.
    We get up. The first thing we do is we see the data that 
arrives from the spacecraft back down to Earth. The science 
team looks at the data, engineers look at the data. We quickly 
assess what it is that is there, and then we see if that 
matches our plans from the previous day about what we would 
like to do next.
    Then we go ahead, and it results in probably about 2 hours 
of tactical decisionmaking where we come up with a list of 
observations that we would like the rover to be commanded to 
do. Then we go through another meeting where those observations 
are confirmed to actually fit within the block of time, energy, 
and data that is available as the three resources that restrict 
our behavior.
    And then we go through a process where those activities are 
all vetted amongst another group of engineers that come on a 
second shift. And then eventually another, you know, six hours 
later or so, these are all confirmed, vetted, cleared, and then 
somebody the button that radiates the command sequence up to 
the rover.
    Senator Nelson. And in your exploration to determine if 
there was water, what is the process by which you do that? Are 
you looking for chemical composition of the soil and rocks?
    Dr. Grotzinger. It is a mixture of both analytical 
chemistry and also observations with the cameras. And through 
this, we are able to merge these observations together, much 
like was done on MER with spirit and opportunity. But now when 
we find something that looks like it was a rock or a soil that 
formed an aqueous environment, we can dig much deeper into it 
to begin to really understand whether or not that aqueous 
environment might also have been an environment that could have 
supported life had life ever existed on the planet.
    Senator Nelson. OK.
    Senator Hutchison. Just to follow up, we always hear that 
the most important thing that we could find is that there might 
be evidence of water, which then might lead to some thought 
that there was some kind of life.
    My question is sort of on the same line as Senator Nelson. 
If you found something that appeared that it might have been 
formed with a water or aqueous atmosphere, will you then be 
able to--what all can you tell? Can you tell how long ago it 
was? Can you tell is there anything in that that would have--
would also indicate life or not, or were the water would have 
come from. What else can you learn if you think there is a 
water component?
    Dr. Grotzinger. What we would be able to is with our 
increased capability on MSL, is we really get a sense for how--
what kind of environment it was specifically that the water was 
pressing it in. Was it there for a long period of time? We'll 
be able to do that a little bit better than we have in the 
past. But mostly we get a really good chemical assessment of 
how not only the water was present, but whether or not the 
environment could preserve organic compounds, which is very 
important for as a science community because when you stop 
short and ask the question about can you ever hope to someday 
find evidence for life on Mars, you first have to look for the 
calling cards, at least traces, if you will. We call them chemo 
fossils, little bits of chemical evidence that suggests this is 
the kind of place that you should go back to and look in more 
detail.
    And our hope is that if we find such bits of chemical 
evidence, that it will be quite a rich record. This will be the 
kind of place you would want to go back to and do sample 
return, for example. You are going to want to go to 
progressively higher levels in your analysis.
    And this is the way we do it on Earth. You go out to the 
field. There are lots of different rocks to go look at. You 
never know kind of which one, but you zoom in on it. And it is 
an iterative process until you bring something back to the lab, 
and then finally know that you found something really 
significant.
    Senator Hutchison. Will you be able to tell how long ago it 
became extinct or the water went away?
    Dr. Grotzinger. Yes. We have the benefit of the Apollo 
astronauts who brought rocks back to Earth from the Moon that 
calibrated the crater rate. And so kind of apply that to Mars, 
and so we have a rough sense of how old these rocks are there 
at the crater. They are probably in excess of 3 billion years, 
somewhere in between 3 and 4 billion years old.
    The harder question is to really ask, if we see evidence 
for water, how long was that water around for. But we do have 
an instrument that if things go in our direction--it is a long 
shot--we might actually be able to date the rock that is there 
and get a sense for how old that water was there.
    Senator Hutchison. How fast--you are talking about an area 
bigger than Connecticut. How fast can the Curiosity move so 
that it can cover the amount of land that you are trying to 
cover in the time that you have?
    Dr. Grotzinger. This is a great opportunity for me to talk 
about--just mention briefly how important the Mars program is 
because it is an iterative process with rovers alternating with 
orbiters. We have orbiters that make maps of where we think the 
good stuff is. And so when we picked our landing site, we 
picked the landing site, and then we were able to move the 
ellipse down in there, and we moved the ellipse very close to a 
place that from orbit looked really good.
    And, you know, I am conservative by nature as a scientist, 
and I would like to wait a little bit longer. But I think we 
are a few hundred meters away from a place we feel pretty 
comfortable that we are going to be able to show if the Rover 
was formed in water. And then after we explore that for a 
while, we are going to take that long drive, and it could take, 
you know, half a year to 9 months to get to the base of Mount 
Sharp. But then we have another series of opportunities there.
    So I think we have got an exploration portfolio of many 
different options in there, and we have just had the--a little 
bit of serendipity. It was not total luck that we wound up in 
this very special place, but I think we are going to be strong 
right out of the gates here.
    Senator Hutchison. And just one last question. Is there a 
time limit in which the Rover will be effective and the 
computers all work, or do you have a fairly unlimited amount of 
time?
    Dr. Grotzinger. Well, we tested the spacecraft to deliver a 
2-year mission, and in comparison, MER was built to go in 9 
months--sorry, 3 months, and we are going on eight and a half 
years. So after 2 years, the warranty wears off, according to 
the manufacturer. But we are looking forward to a real long 
mission after that, too, I hope.
    Senator Hutchison. Oh, good. So it could be years that you 
will keep roving around and poking.
    Dr. Grotzinger. Yes, we hope so.
    Senator Hutchison. Good. OK, thank you.
    Senator Nelson. As a matter of fact, Curiosity can greet 
the human crew when they land.
    You have any opinion as we try to develop the technologies 
and the life support systems that would take us to Mars in the 
2030s? Do we need a sample return mission first?
    Dr. Grunsfeld. John, do you want to take it?
    Senator Nelson. Just your opinion.
    Dr. Grotzinger. My opinion.
    Senator Nelson. Your opinion.
    Dr. Grotzinger. I think the architecture that the Mars 
sample program return has laid out in the decadal survey that 
we as a community fully embraced is the right step to take to 
get us on the way to putting humans on Mars.
    You must have this capability to land something on the 
surface of Mars and get it back off again. And if the 
technology demonstration for that human step is to bring back 
some rocks from a carefully chosen place, we will be all the 
richer for it.
    Senator Nelson. OK. Well, we want to thank you. This is an 
exciting update. Congratulations again on making the country 
proud. And seeing you all jump up and down was a delightful 
sight. Thank you on behalf of a grateful nation.
    Let us call up the second panel.
    We have Dr. Steven Squyres, who is the Professor of 
Astronomy at Cornell; Dr. Charles Kennel, Chairman of the Space 
Studies Board of the National Academies; and Mr. Jim Maser, 
President of Pratt & Whitney Rocketdyne.
    So, Dr. Squyres, we will start with you.

  STATEMENT OF STEVEN W. SQUYRES, GOLDWIN SMITH PROFESSOR OF 
                 ASTRONOMY, CORNELL UNIVERSITY

    Dr. Squyres. All right. Well, Senator Nelson, thank you 
very much for the opportunity to appear here today.
    My name is Steve Squyres, and my title is the Goldwin Smith 
Professor of Astronomy at Cornell University. And I am 
currently the Chairman of the NASA Advisory Council.
    A central focus of the NASA Authorization Act of 2010 was 
the development of two crucial and highly capable elements of a 
deep space exploration system: the space launch system and the 
Orion multipurpose crew vehicle.
    NASA's development of both SLS and Orion is well under way, 
passing crucial milestones, like successful test firings of 
SLS' J-2X cryogenic upper stage, and the delivery of the first 
Orion command module to Kennedy Space Center.
    And what will these vehicles be used for? President Obama 
has called for sending humans to an asteroid by 2025, to Mars' 
orbit by the mid-2030s, and to the surface of Mars 
subsequently. These are grand goals, and they are broadly 
consistent with the goals that were expressed in the 2010 
Authorization Act.
    I see two possible areas of concern. One is that a ``pay as 
you go'' approach can result in slow progress if funding levels 
are not adequate. There has been no human-rated launch system 
in NASA's history that has had a flight rate as low as the one 
that is currently projected for SLS and Orion. And with such a 
low flight rate, it could be challenging to keep flight teams 
sharp and mission ready, as well as to maintain program 
momentum.
    Another is that the SLS/Orion combination, of course, was 
never intended to carry out missions to important destinations 
beyond low-Earth orbit by itself. Additional vehicles are 
needed. For example, an asteroid mission requires hardware that 
is capable of providing crew support in deep space for many 
months. A lunar surface mission, which also can be a stepping 
stone to Mars, requires a lunar lander. But there is no funding 
in NASA's budget to develop such vehicles.
    Stated plainly, NASA's budget today is insufficient to 
carry out the Administration's plan on the stated schedule.
    Now SLS and Orion will be highly capable, and their 
development is progressing very well, but they are only part of 
the picture. Without the means to develop or acquire the 
missing pieces of the puzzle, a decade from now NASA will be 
unable to do much more in deep space than duplicate the success 
of Apollo 8's historic mission to orbit the Moon more than half 
a century later.
    I agree with the 2010 Authorization Act that, quote, ``A 
long-term objective for human exploration of space should be 
the eventual international exploration of Mars.'' In fact, in 
my view, it should be the long-term objective for human 
exploration of space.
    I also believe that robotic missions should serve as 
precursors to human exploration, both to collect engineering 
data and, critically, to lay the scientific foundation on which 
human exploration will be built.
    In the recent National Research Council Planetary Decadal 
Survey that I chaired, the highest priority flagship mission 
identified was a Mars rover that would initiate a campaign to 
return samples from the surface of Mars.
    Unfortunately, NASA has been unable to follow this NRC 
recommendation because of deep proposed cuts in the Fiscal Year 
2013 budget for planetary exploration. The mission would have 
been carried out in partnership with the European Space Agency, 
but that partnership has not come to fruition because of these 
cuts. With such deep cuts, the scientific investigation of Mars 
that should provide the underpinning for future exploration by 
humans is in jeopardy.
    The NASA Authorization Act of 2010 provided the agency with 
a clear set of goals and priorities. The Administration has 
also articulated its own vision. And these two sets of guidance 
are not dramatically different, but together they call for more 
than the agency can do with the budget that it currently has.
    A mismatch between objectives and resources is the reason 
that a crucial piece is missing from a development of our 
robust capability for human exploration in deep space. It is 
also the reason we have seen deep cuts to a program to explore 
the very solar system body to which we hope humans will one day 
be sent.
    Now this mismatch could be corrected by making some painful 
choices--eliminating some of what NASA does to preserve full 
and adequate funding for other things that it aspires to do. 
That would, however, require a new and much more narrowly 
focused national consensus on priorities for NASA.
    Alternatively, and much more attractively, the agency's 
budget could be increased, although I realize that that may be 
difficult in a constrained budget environment.
    One other possible approach would be to broaden NASA's 
capabilities by forging strong international partnerships, as 
has been done so successfully for the International Space 
Station. Right now there is no real plan for international 
participation in NASA's future human exploration beyond the 
Earth orbit, and the hope for collaboration with ESA for future 
robotic Mars mission has been set aside at least temporarily. 
But international collaboration is the path that could hold 
some potential, I believe, for bridging the gap between what 
NASA is being asked to do and what its budget allows it to do.
    Thank you.
    [The prepared statement of Dr. Squyres follows:]

  Prepared Statement of Steven W. Squyres, Goldwin Smith Professor of 
                     Astronomy, Cornell University
    Mr. Chairman and Members of the Committee, thank you for the 
opportunity to appear today. My name is Steven W. Squyres, and my title 
is Goldwin Smith Professor of Astronomy at Cornell University. I have 
participated for the past thirty years in a number of NASA solar system 
exploration missions. Recently I chaired the planetary decadal survey 
for the National Research Council, and I am currently the Chairman of 
the NASA Advisory Council.
Moving Beyond Low Earth Orbit
    The topic of today's hearing is implementation of the NASA 
Authorization Act of 2010. In my testimony, I will focus primarily on 
the elements of that act dealing with extension of human exploration 
beyond low Earth orbit, with particular emphasis on the eventual 
exploration of Mars.
    A central focus of the 2010 Authorization Act was the development 
of two crucial elements of a deep space exploration capability: The 
Space Launch System (SLS), and the Orion multi purpose crew vehicle. In 
my opinion, NASA has made good progress in both of these programs.
    Crucial recent events in the SLS development have included 
completion of the vehicle's System Requirements and System Definition 
reviews, as well as successful test firings of the J-2X cryogenic 
engine for the vehicle's upper stage. In the Orion program, several 
major milestones in the test program have been passed, including water 
drop tests, a test of the launch pad abort system, and a series of 
parachute tests. Importantly, the first Orion command module has been 
delivered to Kennedy Space Center.
    So NASA's development of both SLS and Orion, as called for in the 
2010 Authorization Act, is well underway.
    What will these vehicles be used for?
    In a speech at Kennedy Space Center on April 15, 2010, President 
Obama outlined his Administration's goals for human exploration of 
space. He called for sending humans to an asteroid by 2025, to Mars 
orbit by the mid 2030s, and to the surface of Mars subsequently. These 
are grand goals, and they are broadly consistent with the goals 
expressed by the 2010 Authorization Act.
    Asteroids are important targets for exploration. Scientifically, 
asteroids contain clues regarding the formation and earliest evolution 
of the solar system. Practically, they present both an opportunity and 
a threat. Mining of asteroids could yield raw materials of enormous 
value for use in space, simply because they need not be lifted from the 
Earth's gravity well. And we know that asteroids have impacted the 
Earth in the past with devastating effects, and will do so again in the 
future unless we develop an understanding of these bodies sufficient to 
prevent such an event.
    As for Mars, I feel that sending humans to that planet to with the 
objective of learning whether life ever took hold there is a goal 
worthy of a great national space agency. I agree with the 2010 
Authorization Act that ``A long term objective for human exploration of 
space should be the eventual international exploration of Mars.'' In 
fact, in my view, it should be the long-term objective for human 
exploration of space, whether carried out internationally or by NASA 
alone.
    So I disagree with critics who contend that NASA does not have 
clear goals for human exploration beyond low Earth orbit. In fact, the 
goals are quite clear, and they have been articulated without 
ambiguity. Moreover, two of the key elements for achieving those 
goals--SLS and Orion--are in development and proceeding well.
    But I see two significant problems.
    One is that the ``pay-as-you-go'' approach called for in the 2010 
Authorization Act can result in disturbingly slow progress if funding 
levels are inadequate. The current cost-constrained development 
schedule for SLS and Orion calls for:

  <bullet> In 2014, an orbital test flight of an Orion capsule with no 
        crew, to be launched on a Delta 4 Heavy.

  <bullet> In 2017, a lunar flyby test flight of an Orion capsule with 
        no crew, to be launched on a 70-metric ton SLS.

  <bullet> In 2021, nine years from now, the first flight of a crew in 
        an Orion capsule, again launched on a 70-metric ton SLS, on 
        some mission to be determined.

    Subsequent missions would occur on a pay-as-you-go basis, with a 
launch roughly every two years.
    I believe that the low flight rate currently projected for SLS and 
Orion is a cause for concern. No human-rated launch system in NASA's 
history has flown so infrequently. With such a low launch rate it would 
not just be difficult to maintain program momentum; it would be 
difficult to keep flight teams sharp and mission-ready.
    A more serious concern is that the SLS/Orion combination alone is 
insufficient to carry out missions to any important destinations beyond 
low Earth orbit. The Orion capsule can support a crew of four for three 
weeks, which is far too short a time to conduct a mission to an 
asteroid. An asteroid mission therefore requires development of another 
major piece of hardware, capable of providing crew support in deep 
space for many months. There is no funding in NASA's budget to develop 
this hardware.
    Three weeks is enough time for a mission to the surface of the 
Moon, which like an asteroid mission could be a reasonable stepping-
stone to Mars. But such a mission would require a lunar lander, which 
again is not in NASA's budget.
    So if we truly intend to have a program of human exploration to 
some destination beyond low Earth orbit, there is a piece of the puzzle 
missing. SLS and Orion will be highly capable vehicles, and their 
development is progressing well. But they are only part of the picture. 
Without some means to develop or acquire the missing piece--either a 
deep-space habitation module or a lunar lander--a decade from now NASA 
will be unable to do much more in deep space than duplicate the success 
of Apollo 8's historic mission to orbit the Moon, more than half a 
century later.
The Ultimate Goal of Mars
    As I noted above, I believe that the ultimate goal of NASA's human 
exploration program should be Mars. As was done in the days prior to 
Apollo, robotic missions can and should serve as precursors to human 
exploration. At Mars, the goal of these missions should be more than to 
collect engineering data necessary to get humans to the planet and 
safely back to Earth. It should also, critically, be to lay the 
scientific foundation on which human exploration will be built. If 
human exploration of Mars is to be for more than ``flags and 
footprints'', the scientific case for this exploration must be 
compelling and clear.
    In the recent planetary decadal survey that I chaired, the highest 
priority ``flagship'' mission identified by the National Research 
Council was a Mars rover mission that would initiate a campaign to 
return samples from the surface of Mars. This mission would be 
responsible for characterizing a landing site that has been selected 
for high science potential, and for collecting, documenting, and 
packaging samples for return to Earth. The Mars science community, in 
their inputs to the decadal survey, was emphatic in their view that a 
sample return mission is the logical next step in Mars exploration. 
Mars science has reached a level of sophistication that fundamental 
advances in addressing the most important questions will only come from 
analysis of returned samples. This mission would also explore a new 
site and significantly advance our understanding of the geologic 
history and evolution of Mars, even before the cached samples are 
returned to Earth. A crucial aspect of the Mars sample return campaign 
as originally envisioned was that it would be carried out in 
partnership with the European Space Agency (ESA), reducing the costs to 
NASA.
    Unfortunately, NASA has been unable to follow this recommendation 
from the NRC. The reason for this is simple: deep proposed cuts to 
NASA's F.Y. 2013 budget for Mars exploration prevent it. And in the 
face of these cuts, the hoped-for partnership with ESA has not come to 
fruition.
    If no commitment to a Mars sample return mission is made in 
response to the decadal survey recommendations, the result will be 
highly detrimental to the future of U.S. planetary science. More 
pragmatically, I fear that an inability to enter into a mutually 
beneficial partnership with a willing, eager, and highly capable agency 
like ESA could jeopardize future international partnerships as well. 
And most importantly, the scientific investigation of Mars that should 
provide the underpinning for future human exploration will be lost.
Possible Paths Forward
    As I look at NASA's response to the Authorization Act of 2010, I 
cannot escape the conclusion that the agency is being asked to do too 
much with too little. The act provides the agency with a clear set of 
goals and priorities. The Administration has provided another set of 
goals and priorities. These two sets of guidance are not dramatically 
dissimilar, but taken together they call for more than the agency can 
do with the budget it has. This mismatch between objectives and 
resources is the reason that a crucial piece is missing from our 
development of a robust capability for human exploration of deep space. 
It is also the reason we have seen deep cuts to a program to explore 
the very solar system body to which we hope humans will one day be 
sent.
    In such a situation, I can see four possible paths forward. One, of 
course, is to keep trying to do everything called for with an 
inadequate budget, running the risk of lengthy delays and a job poorly 
done. In an undertaking as difficult as human exploration of deep 
space, that is not a good approach. I urge the Congress to avoid this 
path.
    A second is to make painful choices, eliminating some of what NASA 
does to preserve full and adequate funding for other things it aspires 
to do. That could be done, but it would require reaching a national 
consensus on priorities for space exploration that does not now exist.
    A third is to increase the agency's budget, making all the things 
it being asked to do possible. This path is desirable, but is perhaps 
unrealistic in a constrained budget environment.
    A fourth path is to broaden NASA's capabilities by forging strong 
international partnerships. This approach has worked well in the past. 
The Cassini-Huygens mission to Saturn is an example on the scale of a 
planetary flagship mission, and the International Space Station is an 
example on the scale of a major agency initiative.
    Right now there is no real plan for international participation in 
NASA's future human exploration beyond low Earth orbit, and the hoped-
for collaboration with ESA on future Mars missions has been set aside, 
at least temporarily. But international collaboration is the path that 
I believe may hold the greatest potential for bridging the gap between 
what NASA is being asked to do and what its budget allows it to do.

    Senator Nelson. Dr. Kennel?

STATEMENT OF CHARLES F. KENNEL, Ph.D., DISTINGUISHED PROFESSOR 
     OF ATMOSPHERIC SCIENCE AND DIRECTOR EMERITUS, SCRIPPS 
                  INSTITUTION OF OCEANOGRAPHY,
         UNIVERSITY OF CALIFORNIA SAN DIEGO AND CHAIR, 
NRC'S SPACE STUDIES BOARD, DIVISION ON ENGINEERING AND PHYSICAL 
  SCIENCES, NATIONAL RESEARCH COUNCIL, THE NATIONAL ACADEMIES

    Dr. Kennel. OK. Thank you, Mr. Chairman and Senator 
Hutchison, for the invitation to testify. I have some written 
remarks I would like--longer written remarks I would like to 
submit to the record.
    My topic today is leadership. Let me start with who I am 
because I have a comment I would like to make. I am Charlie 
Kennel. I am chairman of the Space Studies Board, a professor 
and director emeritus at the Scripps Institution of 
Oceanography. And I am proud to say that my predecessor as 
director, Roger Revelle, was on the platform at Rice University 
when President Kennedy made his inspiring speech.
    I must say that Scripps cannot accept the incredible 
challenge of playing Rice in football, however. But 
nonetheless, I think Curiosity teaches us that when you set a 
goal that is extremely difficult to achieve, then NASA will 
beat the odds.
    So I am going to talk about goal setting, clarity of goals, 
and leadership in space. And I am going to spend most of my 
time reviewing what our Space Studies Board has done, but I am, 
of course, going to base a lot of my personal remarks on my 
experience with 12 years on the NASA Advisory Council, four as 
chair, and an associate administrator, and on the Augustine 
commission.
    In human spaceflight, I believe the International Space 
Station guarantees our leadership for a decade, especially if 
U.S. utilization is strengthened. And there your miraculous act 
that asked the National Research Council and our Committee on 
Physics and Biology in Space to lay out a program for space 
science utilization in our most recent decadal survey. And I 
promised to report--I am pleased to report some promising 
developments: that NASA has created a new and independent 
office for physics and biology in space, they are beginning to 
work very hard to reconstitute a discipline that was basically 
destroyed by earlier budget cuts, and they are making progress 
on a non-governmental organization, a user interface 
organization. And so I think we can see good progress in that 
area.
    But the question before us now is, what will constitute 
human spaceflight leadership beyond the coming decade? And as 
Steve has indicated, there are many factors there, and he has 
reported on the important direction that you gave to the 
program that is moving forward.
    One piece of direction you gave also to us, and you asked 
the National Research Council to undertake a study of the goals 
and core capabilities and future directions of space flight 
beyond the decade.
    Now this is a very complicated study. Scientific and 
technological, sociological, national security, international 
relations, even philosophical issues, come into what should the 
goals of human spaceflight be over the long-term. What kind of 
goals can we set as a country that will keep NASA and the 
country coming back to making and attending to the achievements 
that it intends to make, even though there are budget 
fluctuations, policy, and administrative changes? Where are the 
long-lasting goals that can serve the program through mid-
century?
    And I am pleased to say that a distinguished leadership 
team for the study--you will be impressed--is about to be 
announced. We have worked very hard to develop stakeholder and 
public consultation plans. And in my belief, this is the most 
potentially innovative study that I have been involved with.
    It is also the case that, since so many factors besides 
science and technology go into studying this goal, we are going 
to draw on the full resources of the National Research Council 
in many different areas, endeavor beyond those that the Space 
Studies Board and the Aeronautics and Space Engineering Board 
oversee. But we will be principal supporters of that.
    Now in this year, we just--I am now going to move on to 
leadership in space science, and I will end with some remarks 
on Mars.
    Just this year, we completed a round of decadal surveys and 
a mid-decadal survey that looks over all of the subjects of 
space science that NASA deals with. And I think that these 
recent decadals are going to be the best picture of the 
contemporary state of American space science that you are going 
to get in the near future. And, of course, there are many, 
many, many things that were discussed in careful detail. The 
community was consulted. Hundreds of white papers came in and 
so forth. But from all of that, I am just going to extract the 
leadership elements, the ones that inspire people to work 
beyond their capabilities and to beat the odds.
    So first, here are some of the things we need to do for 
leadership in astrophysics: stay the course with the James Webb 
space telescope. Despite all the difficulties, it is still a 
leadership instrument in astronomy and astrophysics. The 
scientific rationale for it has developed considerably since 
2000 when it was first proposed; it can now do extra solar 
planets with good capability. If we abandon it now, we risk 
abandoning world leadership in the entire subject of 
astrophysics, just as the event with the super conducting super 
collider did, unfortunately, for American high energy physics.
    Next, we have to capitalize on American leadership in the 
dark energy area. And we need to find a way to get the science 
done that was proposed by the first priority new mission in our 
most recent decadal survey, the wide field infrared space 
telescope. The implementation is less important than achieving 
the goals of maintaining leadership in dark energy science, 
which we started, and also to continue the work in exoplanets 
that it was able to do.
    The next area--next two areas, I am going to treat 
together. They are in some ways very different, but they have 
something in common. One is heliospheric physics--solar 
terrestrial physics--and the other is Earth science. And of the 
many issues that they have separately, they have one in common; 
that is, that the goals that they set for themselves depend in 
serious ways on interagency coordination, which is where I 
believe this committee can play a serious role.
    In heliospheric physics, it is on the verge of a very 
exciting new capability that really predicts space weather and 
the impacts on spacecraft and ground systems from solar storms. 
It is on the verge of becoming an operationally useful subject.
    At the same time, Earth Science's most recent report 
suggests that Earth Science is on the verge of defaulting on 
the science and applications obligations it has thus far 
successfully carried, because as we look forward into the 
future, the number of spacecraft devoted to this area looks 
like it is going to diminish dramatically.
    And in both cases, there needs to be collaboration between 
NASA, NOAA, the U.S. Geological Surveys, and other agencies in 
order to set the goals for these programs. And congressional 
and administrative leadership is required to settle these roles 
and missions.
    Now you have heard this many times: you have got 
coordination fatigue. How many times have you heard this? But 
there may be one area where the science community can help you 
out as you try to figure out the roles and missions of the 
agencies, whose coordination is essential to these--the success 
of these projects.
    Perhaps we scientists, and technologists, and users could 
identify key variables and standards of measuring those 
variables that need to be sustained over the long terms as part 
of a national commitment. And at that point, maybe the agencies 
will see more clearly what their role is. But they need to look 
at these variables not only from their measurement in space, 
but what requirements will be placed on the ground systems to 
analyze the data, what standards we will use for exchanging 
data, and how we decide to preserve the data in long-term 
archives.
    So now as promised, I come back to planetary science. There 
is very much more to planetary science than Mars, but I am 
going to focus my remarks on that for the moment.
    It is leadership science in its essence. Even landing on a 
planet is something that most people cannot do. Most countries 
cannot do it. And as the senator mentioned, we believe that 
with good luck, our energy source will last, and Curiosity is 
going to return unmatched science for as much as a decade. The 
scientific community will continue to be very busy.
    We did not expect to have to come before you and say this, 
but the future direction for Mars beyond that, which we once 
thought was fairly clear and secure, has suddenly become 
unclear. And this is because of the recent cancellation of two 
missions that were designed in consonance with a strategy for 
research that was put into place 15 years ago, of which 
Curiosity is the most recent and most spectacular project, a 
strategy in which the various assets that we devote to Mars 
work with one another and reinforce each other, so that the 
whole is greater than the sum of its parts. You could see it 
during that landing because they had to move one of the 
orbiting spacecraft over the landing point to take the picture 
of the landing that became so spectacular on the 'net.
    And now, from my point of view as a scientist, those 
missions were canceled without a clear explanation that is 
based in science. And Visions and Voyages, the decadal study 
that Steve chaired for us, provided a similar guiding principle 
for the next few decades, just as the strategy of ``Follow the 
Water'' led to the sequence of missions that right now is 
ending in Curiosity.
    The guiding principle for the next series of missions is 
sample return. And it really is a guiding principle. If you are 
going to spend big money on Mars, do not spend it on things 
that diffuse our focus. Spend it on the ultimate goal, sample 
return. Now why is sample return important? Because when you 
bring it back, you can bring the full potential of thousands of 
laboratories around the world to bear on understanding the 
place where the astronauts are going to land or the 
characteristics of it. And we also see, from the Lunar Science 
Institute, that 50 years from now, those samples will still be 
used for new science that nobody thought of at the time.
    I would like to make a point: sample return is no more a 
call on present resources than is the goal of a Mars human 
landing. Both of them are long-range goals, and they--but they 
focus the use of resources that we do have on a goal that will 
eventually add up.
    And so to my way of thought, and as a part of the Space 
Studies Board, the unclear goal--the destruction of a clear or 
the suspension of a clear goal that was guiding our thinking 
and making our efforts synergistic, is the most serious 
outcome. It can be repaired. Perhaps the process of repair is 
under way right now, but I cannot predict. At the present time, 
NASA is conducting a serious study of how the human spaceflight 
enterprise in the Mars science community can collaborate.
    Now what is really important from all of this, from my 
point of view, is that there be a clear set of goals where 
collaboration enhances the leadership of both areas, and not 
just identify a few nice to haves where we can work together. 
It is essential to harmonize two essential goals: sample 
return--understand the environment on Mars and the possibility 
of life--two essential goals; and landing on Mars, that both 
share a commitment to leadership, but are only partially 
synergistic in implementation.
    It is important to get the alignment of these goals right 
because in the past, the relationships between human science--
human spaceflight and the science enterprises has been fraught 
with difficulty and confusion because of unclear goals. And 
again, congressional leadership is essential to NASA leadership 
in this area. And we think that SSB--we hope to be able to 
have, by taking a look at the NASA report as it comes out and 
looking at it from the point of view of long-range planning and 
science, just as the NASA Advisory Council suggested we do.
    So at the end of the day, I would think that my whole talk 
has been devoted to the need for consistency of vision and 
goals as essential to achieving leadership in space. And you 
know this. The science and technology community can weather 
budgetary ups and downs, even policy changes, cancellations, 
this and that. But wholesale changes in direction are another 
matter all together; I hope that we have time to repair this 
situation.
    And those are my remarks. Thank you very much.
    [The prepared statement of Dr. Kennel follows:]

Prepared Statement of Charles F. Kennel, Ph.D., Distinguished Professor 
 of Atmospheric Science and Director Emeritus, Scripps Institution of 
Oceanography, University of California San Diego and Chair, NRC's Space 
Studies Board, Division on Engineering and Physical Sciences, National 
                Research Council, The National Academies
Leadership in Space

    Mr. Chairman, Ranking Member Hutchinson, members of the Committee:

    I am Charlie Kennel, Chair of the National Research Council's Space 
Studies Board and a Distinguished Professor of Atmospheric Science and 
Director Emeritus in the Scripps Institution of Oceanography at the 
University of California, San Diego (UCSD). The National Research 
Council (NRC) is the operating arm of the National Academy of Sciences, 
the National Academy of Engineering, and the Institute of Medicine of 
the National Academies, chartered by Congress in 1863 to advise the 
government on matters of science and technology. The Space Studies 
Board (SSB) was established in 1958 to serve as the focus of the NRC's 
interests and responsibilities in space science research.
    The focus of this hearing is progress in implementing the goals of 
the 2010 NASA Authorization Act--legislation that is clearly aimed at 
maintaining U.S. leadership in our exploration of space.
    Two recent events remind us how important leadership is. Several 
weeks ago, America lost the first astronaut ever to land on another 
world, Neil Armstrong. Neil was respected throughout the space 
community, not only for his competence and his courage, but also for 
his modesty. He never failed to say that his success was the Nation's 
success. He credited it to the creativity of tens of thousands of 
scientists and engineers in NASA, academia, and industry and to the 
support of millions of the American people. He saw how an inspiring 
goal gets a supreme effort from the tens of thousands, and enduring 
support from the millions.
    A little more than a month ago, Curiosity landed on Mars, and 
millions of people around the world shared its ``seven minutes of 
terror'' with the thousands who built it. This too was leadership, even 
though there was no astronaut on board. We are confident that Curiosity 
will carry out state-of-the-art science motivated by a very clear 
goal--to search for evidence of organic molecules and water, the 
prerequisites for life. But really, it was the audacity of the 
landing--the incredible sequence of things never done before that had 
to come out right--that marked Curiosity for leadership. One more time, 
NASA showed that when it is given something extraordinarily difficult 
to do, it beats the odds.
    Where are NASA's next opportunities for leadership? This is a 
question that the Space Studies Board and our sister committee the 
Aeronautics and Space Engineering Board are established to help answer 
for the Nation. Identifying the opportunities for advancing our 
knowledge of space through human and robotic exploration is the 
motivation behind the NRC's studies that the SSB and ASEB oversee.
    For nearly 3 years. I served as Associate Administrator of NASA for 
``Mission to Planet Earth,'' and 12 years on the NASA Advisory Council, 
including 4 years as its Chair. In 2009, I served on President Obama's 
Review of Human Space Flight Plans, the so-called ``Augustine 
Commission'', and since 2008 I have chaired the Space Studies Board. 
The views I will present today, which are my own personal perspectives, 
are largely informed by the work of the Augustine Commission and the 
Space Studies Board.
Human Spaceflight
    As you know, the 2010 NASA Authorization Act asked the NRC to 
appoint a committee to undertake a study to review the long-term goals, 
core capabilities, and direction of U.S. human spaceflight activities 
and to make recommendations to enable a sustainable U.S. human 
spaceflight program. Following the transfer of funds from NASA to the 
NRC, the study commenced on August 1, 2012, and the Committee 
recruitment process is currently underway and making good progress. 
Prior to the start of the actual study, a number of activities were 
carried out under a separate initiation task. Those activities included 
outreach, collection of research materials, the identification of 
skillsets, knowledge and perspectives critical to the study, and the 
broad solicitation of names as well as the review of qualifications for 
an extensive set of committee candidates. Outreach activities conducted 
in this period included a discussion session held during the Global 
Space Exploration Conference in Washington, DC, in which 
representatives from several international space agencies discussed the 
perspectives of their citizens and governments on the value, rationale, 
and future direction of human space exploration.
    As recognized by the leadership of the NRC, this study embodies 
technical, sociological--and even philosophical--issues. The study 
encompasses both exceptional challenges and exceptional opportunities. 
Accordingly, the NRC staff who are preparing for this important 
activity have had an extensive series of wide-ranging discussions 
across the spectrum of disciplines represented in the National 
Academies family, as well as with the NASA community, the international 
community, and with members of the space community.
    Once the Committee holds its first meeting, tentatively scheduled 
for later this year, the Committee will begin to solicit broadly based, 
but directed, public and stakeholder input to understand better the 
motivations, goals, and possible evolution of human spaceflight. The 
next task is to start to identify a set of high-priority enduring 
questions that describe the rationale for and value of human 
exploration in a national and international context. The Committee has 
been charged to provide prioritized recommendations and decision rules 
that could enable and guide future planning for U.S. human space 
exploration. The recommendations will describe a high-level strategic 
approach to ensuring the sustainable pursuit of national goals enabled 
by human space exploration, answering enduring questions, and 
delivering value to the Nation. Notwithstanding the considerable 
challenge this study represents, it is my firm belief that this 
committee will benefit enormously from the fact that they will have 
been given 22 months to complete their report, a time period that will 
allow them to consider carefully the difficult challenge they have been 
set.
    In addition to the many technical studies that NASA and others have 
produced over the years, the study committee will also benefit from 
previous work by the NRC in related areas. The NRC study America's 
Future in Space: Aligning the Civil Space Program with National Needs 
outlines how changes in geopolitical context since the end of the Cold 
War are affecting the national space program and will be among the 
reports the new study will consider as it gets started. Our recent 
report Recapturing a Future for Space Exploration: Life and Physical 
Sciences Research for a New Era is a decadal survey recommending a 
research portfolio that would ensure that the Nation is ready for the 
next significant phase of human spaceflight. This report presents an 
examination of the science and technology that can bring about these 
achievements--such as a deeper understanding of the role of gravity in 
the regulation of biological systems, how to control critical fluid 
behavior in space exploration systems, and research on fire safety and 
water production in an extraterrestrial environment. The report has two 
foci: research that enables space exploration and research that is 
enabled by access to space. This is the scientific research needed to 
pave the way for the profoundly advanced capabilities we must have in 
order to make the most ambitious exploration goals not only feasible, 
but cost effective. The International Space Station (ISS) and its 
research facilities now provide an unparalleled window of opportunity 
to make significant and sustained progress on these questions, but this 
will require a full and vigorous exploitation of the Nation's enormous 
investment in the space station.
    Virtually every NASA success has resulted from technological 
breakthroughs. Our NRC report NASA Space Technology Roadmaps and 
Priorities: Restoring NASA's Technological Edge and Paving the Way for 
a New Era in Space identifies the top 10 technical challenges as well 
as the highest-priority technologies for NASA missions that extend and 
sustain human activities beyond low Earth orbit, explore the evolution 
of the solar system and the potential for life elsewhere, and expand 
our understanding of Earth and the universe in which we live.
    Some people have said that NASA relinquished leadership of the 
human spaceflight enterprise when it retired the space shuttle. In my 
personal opinion, nothing could be further from the truth. The 
International Space Station, if nothing else, guarantees U.S. 
leadership for the rest of the decade, and there are at least three 
things NASA can do now to ensure leadership after that. The first is to 
realize the full promise of ISS utilization, building on the 
foundations of its status as a National Laboratory and by rebuilding 
the Nation's research program in life and microgravity science, as 
outlined in the decadal survey report mentioned earlier. Next is to 
encourage America's new entrepreneurial launch industry, not only to 
support human spaceflight and to bring down the cost to launch 
scientific spacecraft, but also to give a boost to an entirely new 
space economy. Finally, by the end of this decade, NASA has to make a 
firm start on a long-term program of human exploration beyond low Earth 
orbit. We should not minimize the challenge. First of all, it means 
developing a solid base of new technology and a heavy-lift launch 
vehicle in this decade. That is challenge enough, but human beings will 
have to survive away from Earth for years; the biomedical and radiation 
hazards must be faced, and we do not understand how we will deal with 
these problems. To me, the subtlest challenge of all is to learn how to 
sustain the enterprise for the decades it will take to accomplish its 
mission. This means settling on clear, fundamental goals that can 
endure despite the inevitable ups and downs that occur while they are 
being achieved.
    Many people believe that Mars is the ultimate goal for human 
exploration, and, indeed, the 2010 Act recognizes that ``A long term 
objective for human exploration of space should be the eventual 
international exploration of Mars.'' This fact alone makes it clear 
that NASA's Mars science and human exploration programs have a powerful 
mutual interest in working together. The key issue right now is to 
develop a clear set of goals where collaboration enhances leadership 
for both science and exploration. Otherwise, a relationship that has 
been fraught with difficulty in the past could again go awry. 
Fortunately, I see a new spirit of cooperation, and there is reason to 
be optimistic. That said, it is clear that NASA's space science program 
is under considerable stress. The past year has witnessed, for example, 
the disruption, if not outright abandonment of, scientific strategies 
that have been constructed over many years for the future exploration 
of Mars and outer planetary bodies such as Europa. And, in the process, 
international agreements highly advantageous to the research community, 
NASA, and the Nation were set aside.
Space Science
    The 2010 Act instructs NASA to take into account the current NRC 
decadal surveys when submitting the President's budget request to the 
Congress. So let me spend a little time reflecting on the current 
situation there.
    The recently completed NRC decadal surveys and related studies, 
taken together, provide an up-to-date overview of the state of American 
space science. The study teams sought the views of their disciplinary 
communities by soliciting hundreds of white papers and conducting 
dozens of town hall meetings. The decadal survey teams included 
experienced managers and engineers, as well as scientists, and made 
independent estimates of cost and technical risk so as to make 
financially responsible recommendations. In all cases, however, the 
process started with identifying the most important scientific goals 
for the coming decade. Some of the financial assumptions may have been 
overtaken by the recent budgetary turmoil, but the goals behind the 
specifics still shine through. It is these I relate here, especially 
those whose achievement is critical to leadership in the coming 
decades.
    American leadership in space astronomy and astrophysics is solid, 
but not unchallenged. The Hubble Space Telescope, the Nobel-winning 
Cosmic Background Explorer, and 20 years of systematically planned 
missions to study the sky in every accessible wavelength range, from 
microwaves to gamma rays, have kept research in these fields on the 
forefront. This leadership is ours to lose. First and foremost, we must 
stay the course and complete the James Webb Space Telescope (JWST). I 
think neither the scientific community nor Congress knew how 
challenging (and expensive) this mission would become, but stopping now 
would have serious consequences for the whole field. Many of us recall 
that the U.S. lost leadership in particle physics to Europe when the 
Superconducting Supercollider was cancelled. We cannot let the same 
thing happen to JWST, which will do in the 21st century what Hubble did 
in the 20th. Next, we should capture the benefits of pioneering 
American breakthroughs in dark energy by accomplishing the goals of the 
Wide-Field Infrared Survey Telescope (WFIRST), the first priority 
mission in the NRC decadal survey New Worlds, New Horizons and a highly 
capable mission that has an equally compelling science goal in the 
discovery of extrasolar planets. Completion of JWST may delay their 
accomplishment, but if we do not pursue these goals in as timely a 
manner as possible, we lose our edge. Europe will launch a dark energy 
mission in this decade.
    Heliospheric physics, the field in which I started my career, is 
the most mature branch of space science. In the past 20 years it has 
achieved a precision of measurement and modeling that astounds me and 
puts the field on the threshold of transformative advances in its 
understanding and prediction of ``space weather.'' We now can predict 
in detail when and how events on the Sun will affect the operation of 
technological systems that are sensitive to Earth's electromagnetic 
environment, like electrical power-grids, pipelines, and communication 
satellites. Congress has a delicate role to play here, as it guides the 
evolution of this new research-intensive operational program, since 
relationships among NASA, NOAA, and DOD need to be shaped. Leadership 
in science does not always mean big missions, it can also mean 
innovation in program design and integration. Here the SSB's most 
recent decadal survey, Solar and Space Physics: A Science for a 
Technological Society, excels. Its DRIVE (Diversify, Realize, 
Integrate, Venture, Educate) initiative proposes a mix of orbital and 
sub-orbital missions, modeling, and ground-based measurements that is 
both scientifically innovative and fiscally realistic. Later in the 
decade a set of moderate missions will enable a set of compelling 
science targets that the survey identifies as key to advancing our 
understanding of the complex system that encompass the interactions of 
the Sun with our home on Earth, its planetary environs, and the 
surrounding heliosphere--the outer edges of which are being explored 
now by the Voyager spacecraft 35 years after their launch.
    Earth science, the field in which I was once NASA's Associate 
Administrator, staked out a position of undeniable leadership in the 
1990s that could be lost in the next decade unless some firm directions 
are set. Twenty years ago NASA began the Earth Observing System, a 
project comparable in scope and ambition to JWST and Curiosity. This 
project was manifestly important to society, and it was based on a new 
conceptual synthesis, the first comprehensive approach to understanding 
the behavior of Earth as a system. Now, 20 years later, the SSB's 
recent Earth Science and Applications from Space: A Midterm Assessment 
of NASA's Implementation of the Decadal Survey documented a crisis in 
Earth observations. We are now at the point where even optimistic 
scenarios of future capabilities predict that the number of missions 
and instruments to observe Earth from space in the next decade will 
fall precipitously unless existing space assets remain operational well 
beyond what is anticipated. Many contributing factors are documented in 
the report, but, in the end, the fact is that a cornerstone of NASA 
science, despite good management of the resources it has, is neither 
living up to its promise nor fulfilling national needs.
    NASA cannot solve the crisis in Earth observations by itself, 
although without NASA the enterprise fails. In this field, NASA needs 
to take a national approach, and it has to make complex and fragile 
arrangements with other U.S. agencies and international partners. 
Indeed, several recent NRC reports, including the decadal survey and 
the midterm assessment, have highlighted the need for a comprehensive 
national strategy for Earth observations from space to better address a 
plethora of problems that center on the misalignment of agency roles 
and responsibilities with agency budgets. Above all, the Earth 
observation enterprise needs the country to agree on a stable, 
motivating vision like those that keep astronomers and physicists 
returning to the same questions for decades until they get answered.
    Planetary science is leadership science in its essence. Simply 
getting to another planet is a major challenge, and landing on one is 
where the United States is a complete master, as Curiosity shows; the 
U.S. is also the undisputed, but not unchallenged, leader in the 
orbital exploration of the outer planets and their satellites. My 
colleague Steve Squyres can make these points with much more authority 
than I, since he chaired Vision and Voyages, SSB's recent decadal 
survey in planetary science. Here I restrict myself to a few general 
remarks. His committee's report identifies the highest-priority mission 
being one that would begin the process of returning samples from Mars. 
The report emphasizes the importance of maintaining a balanced program 
and describes promising smaller missions and the supporting activities 
necessary to make these programs successful with strong support for the 
New Frontiers and Discover classes of missions. Many people have 
praised Vision and Voyages for its succinct set of ``decision rules'' 
designed to help cope with changing budgetary circumstances.
    Curiosity, because it has a long-lasting nuclear power source, 
could produce world-class science throughout the coming decade, but 
unfortunately there is now a question of what comes after that for 
Mars. Curiosity is the product of a program strategy developed in the 
late 1990s to answer a first-class scientific question: What did water 
on Mars do in the past, and where is it now, and is there evidence for 
organic molecules? (Water and organic molecules were, after all, the 
prerequisites for life on Earth). Recently, the next two missions 
consistent with this strategy--The Mars Trace Gas Orbiter and the Mars 
Astrobiology Explorer-Cacher--were cancelled; whatever the issues of 
risk and financial prudence that might have motivated this decision, it 
sends a chill through the Mars science community and its many followers 
in the public. The near future looks bright, but what will come after 
the launch of MAVEN \1\ in 2013 and InSight \2\ in 2016? Will we be 
able to keep the team together? Fortunately, Visions and Voyages points 
to a guiding direction for Mars science exploration. Missions should 
contribute to the goal of sample return, so that one day hundreds of 
scientific laboratories on Earth can be put to work broadening the 
scientific beachhead our landers are occupying.
---------------------------------------------------------------------------
    \1\ Mars Atmosphere and Volatile Evolution, the second and final 
Mars Scout mission.
    \2\ Interior Exploration using Seismic Investigations, Geodesy and 
Heat Transport, the next Discovery mission.
---------------------------------------------------------------------------
    NASA has assembled an internal team to identify an integrated 
strategy for the agency's Mars Exploration Program in light of current 
funding constraints. NASA has said that team's initial focus will be on 
a possible 2018-2020 robotic mission as part of a program whose 
framework will be developed in consultation with the science community 
and international partners, and which aims to advance the priorities in 
the Vision and Voyages decadal survey. This team's report is expected 
to be released soon, and we at the SSB with our Committee on 
Astrobiology and Planetary Science stand ready to assist in ensuring 
that the eventual program pursues the carefully developed priorities of 
the decadal survey--priorities that are the result of a 2-year process 
that represents the consensus position of the scientific community on a 
balanced planetary science program that will produce, as Steve Squyres 
has said many times, the best science return per dollar for the Nation.
    I have highlighted where I see opportunities for leadership in each 
of NASA's main areas of space endeavor. I have had to gloss over the 
many other less visible, but in total equally essential, activities 
that contribute to excellence. These may be found in the reports 
themselves. But there is one more requirement for leadership that can 
be found in every report: balance. Balance means different things in 
each area, but basically it means that we should not put all our eggs 
in one basket. Also, balance definitely does not mean ``something for 
everybody!'' Smaller spacecraft missions, sub-orbital flights, 
modeling, data analysis, and research grants sustain the quality of the 
disciplines that originate the great leadership projects. It is 
striking to me that each of our committees put its recommendation for 
balance on an equal footing with its first-priority leadership mission.
    What does this mean for you as legislators? Keep in mind that when 
you support leadership projects, you are investing in the spirit of 
innovation, and when you support balance, you are investing in the 
capacity to innovate.
    Never before has congressional leadership been more critical to 
America's leadership in space than now. Now is the time for you to 
shape enduring goals that can guide America's space program to its next 
stage of leadership in the complex times you see ahead. The space 
science and technology community can deal with budgetary turbulence, 
but only when there is a stable sense of direction.

    Senator Nelson. Thank you, Dr. Kennel.
    Mr. Maser?

              STATEMENT OF JIM MASER, PRESIDENT, 
                   PRATT & WHITNEY ROCKETDYNE

    Mr. Maser. Thank you. Senator Nelson, Senator Hutchison, 
thank you for the opportunity to testify on this important 
topic.
    I would like to start by recognizing Senator Hutchison for 
her decades of public service. You have been a fearless and 
long-time champion in particular of education reform, which I 
think is the first and most critical element to preserving the 
future of our space program going forward. And you have been a 
true leader for the state of Texas and for the nation. I wish 
to thank you for your dedicated service and wish you well on 
your retirement.
    For the purpose of today's discussion, I want to highlight 
these major themes and concerns. First, the need to create an 
enduring vision, one that will focus on increasing scope and 
reach of presence through continuous and incremental steps; the 
need for a consistent, clearly articulated budget that allows 
the execution of an enduring vision; recognize that it is 
NASA's job to define how to execute an enduring vision within 
the budget they have been given; and finally, to reinforce that 
the Congress and the Administration have decided that SLS is a 
beyond Earth orbit vehicle of choice, and everyone's focus 
needs to be on progress that will lead to exploration and the 
fulfillment of this enduring vision, an exploration of vision 
that will push the boundaries of innovation. It is my belief 
that is what the 2010 NASA Authorization did when it laid out 
the need for NASA to move forward with the space launch vehicle 
and the Orion crew capsule.
    For some time now, and especially since the end of the 
space shuttle program, NASA has seemingly suffered from a lack 
of an overarching, enduring vision for leadership in space 
science technology and exploration. The Administration canceled 
Constellation, and then established new priorities and 
direction, such as landing on an asteroid and funding 
commercial space capability consisting of multiple providers 
without clearly identifying a supporting or marketer demand 
beyond the U.S. Government itself. This was done with what 
appears to be limited coordination and consent from Congress.
    Because of this lack of coordination, Congress has been 
compelled to be prescriptive in its legislative language with 
regard to NASA's specific systems architectures and 
requirements to ensure at least some level of stability for the 
industrial base and preservation of unique and critical skills.
    I believe in order for any of the discourse we are talking 
about today to be relevant, we must have an enduring stable 
vision for NASA that is set by the President in alignment with 
Congress and budgets in a consistent manner that enables 
execution over timeframes that extend beyond a single 
administration or congressional election cycle.
    When our nation first embarked upon space exploration 
leadership, the expectation was that we would incrementally and 
continuously expand our scope and reach of presence over time, 
both robotically and with humans. As Jay Barbree said in his 
recent five-part commentary, ``We must have an affordable 
science-driven method of learning, moving steadily outward in 
logical increments.'' I believe we must have clear missions and 
destinations. And then identify the capabilities that either 
already exist or need to be created in order to complete these 
missions. It is really that simple.
    There is no one right solution to how NASA can achieve this 
incremental exploration and fulfill their charter. Someone must 
choose, and we have a nation--as a nation have created NASA to 
do just that. As such, NASA has determined they need a heavy 
lift launch capability and space launch system as the answer to 
that need.
    The Augustine Commission in their review of the NASA human 
spaceflight program made the following statement: ``The 
committee reviewed the issue of whether exploration beyond 
lower Earth orbit will require a super heavy lift launch 
vehicle, and concluded that it will.'' Regardless of the exact 
mission architecture that is ultimately pursued, or the exact 
heavy mass requirement, the heavy lift launch capability that 
the SLS will provide is fundamental to its execution, and must 
be pursued with the utmost priority and speed.
    NASA's entire exploration architecture is dependent upon 
its capabilities as an enabler. And now that an architecture 
has been established, it is imperative that it receive adequate 
funding and in no way follows the fate of the Constellation 
program.
    What NASA cannot afford to do is continue the trend of 
canceled programs, re-baselining, and seemingly random 
directional changes of objectives and priorities. These fits 
and starts have cost this Nation considerable effort, time, and 
money, with tremendous disruption, loss of critical skills, and 
little return or progress.
    Clearly SLS will be most capable with a U.S. launch vehicle 
and with the Orion spacecraft and modern systems, will enable 
new missions of human exploration across the solar system, as 
well as benefit high priority science missions. It leverages 
and builds upon past experience and technology.
    This is the time to ensure we get beyond Earth orbit as 
fast as possible, as cost effectively as possible, and safely 
as possible. Once we do that, we can resume true exploration in 
the innovations and inventions necessary to push the boundaries 
and explore and live on other bodies.
    And in order to push the boundaries, both robotic and human 
exploration missions have their place within an overall 
exploration program. There has been a lot of talk about 
returning to the Moon. SLS gives NASA the flexibility to do 
that, perhaps first launching robotic missions and then humans.
    A continual incremental approach to exploration should be 
the norm. While humans explore the poles of the Moon, robots 
should be characterizing the environments on Mars and its 
moons. When humans finally explore the Martian system, robots 
can be exploring the icy depths of the vast oceans of Jupiter's 
moon, Europa.
    We must recognize there is no end to this process, no 
victory dance followed by the abandonment of vital innovation 
engine for the country--just simply continuous progress.
    The enormously successful landing of the Mars science lab, 
Curiosity, is a perfect illustration of another step in this 
incremental development and exploration, as well as the 
complementary use of precursor robotic missions in space 
exploration.
    I want to stress that NASA's exploration programs are not 
simply intended to return scientific data. They lead to 
technologies that can be used and built here on Earth, and most 
notably, they inspire our nation and future generations to 
come.
    Finally, like many other people today, on the 50th 
anniversary of the Rice speech, I have a quote from John F. 
Kennedy that I use often, and it is a little bit longer of the 
version you used: ``We choose to go to the Moon in this decade 
and do the other things, not because they're easy, but because 
they're hard, because that will serve to organize and measure 
the best of our energies and skills.'' And I say that because 
I'm not nostalgic for the days of the past, and I don't want to 
relive the glory days, but because President Kennedy said doing 
the hard thing drives us to use the best of our energy and 
skills, which in turn creates the need and motivation to expand 
our boundaries. NASA's job is to do the hard stuff, constantly 
pushing the boundaries that requires technological advancement.
    We grow as a nation because it takes the best of our people 
and capabilities to push the limits of creativity and abilities 
leading to true innovation and true inspiration. As such, 
innovation and inspiration cannot be goals of what NASA does 
and strives for, but rather is the result.
    Just as Curiosity's mission spawned innovation, which 
inspires us all, sustained human exploration will challenge us 
to future innovations that we cannot even predict. But know 
from experience will keep us in a leadership position, not only 
in space, but here on Earth.
    Thank you for the opportunity to address the Committee 
today, and I look forward to any questions you have.
    [The prepared statement of Mr. Maser follows:]

 Prepared Statement of Jim Maser, President, Pratt & Whitney Rocketdyne
    Chairman Nelson, Senator Hutchison, Senator Rockefeller and 
distinguished members of the Committee:

    Thank you for the opportunity to testify on the important topic of 
NASA's path from LEO to Mars and their progress and challenges in 
developing a human spaceflight and exploration capability under the 
NASA Authorization Act of 2010.
    Before I begin, I'd like to start by recognizing Senator Hutchison 
for her decades of public service. She has been a fearless and longtime 
champion of education and education reform which is probably the first 
and most critical element of preserving the future of our Nation's 
space program. As the first woman elected to the U.S. Senate from 
Texas, she has served as a role model and an inspiration to others. She 
has been a true leader for the state of Texas and for our Nation, and I 
wish to thank you Senator Hutchison for your dedicated service and wish 
you well in your retirement.
    I think it's important as a foundation for this discussion to touch 
on the issue of NASA's strategic direction. For some time now and 
especially since the end of the Space Shuttle program, NASA has 
seemingly suffered from a lack of an overarching, enduring vision for 
leadership in space science, technology exploration. The Administration 
cancelled Constellation and the Moon mission and and established new 
priorities and directions such as landing on an asteroid and funding a 
commercial space capability. This was done with what appears to be 
limited coordination and consent from Congress. Congress, being 
concerned and not necessarily in full agreement with these 
Administration decisions, has been compelled to be prescriptive in its 
legislative language with regard to NASA specific systems architectural 
requirements to ensure some stability in the industrial base and 
preservation of critical and unique skills. .
    Without clear direction from the Administration, NASA has been left 
to juggle a multitude of tasks. NASA is very busy trying to reestablish 
U.S. access to the International Space Station and maximize its 
scientific returns and develop a Beyond Earth Orbit (BEO) launch system 
with no clear set of missions. NASA is working all of those efforts in 
conjunction with trying to develop human and robotic roadmaps with its 
international partners, fund a commercial space enterprise to sustain 
multiple competitors without clearly identifying a supporting market or 
demand, and accomplish meaningful results in a timely manner. Finally, 
they are attempting to do the many other things that keep ten NASA 
Centers healthy. NASA is being asked to do all of this with a flat, 
essentially declining budget.
    As a result of these influences, NASA is left trying to fit all 
these priorities into a cohesive story in the face of extreme budget 
austerity and more political sea changes on the horizon. They are 
trying to consolidate and communicate a vision to fit the direction and 
restrictions provided by the Administration and Congress rather than 
executing on their original charter to explore, push the boundaries and 
limits of our knowledge and capabilities, serve as the leader in space 
technology for the rest of the world, and finally, and perhaps most 
importantly to inspire our Nation and the world.
    The Administration and Congress must reach agreement on a path 
forward as budgets are established rather than the current practice of 
the Administration putting out an entirely new direction in an 
uncoordinated budget, only to have Congress stall over the non sequitur 
funding proposals. Senators Nelson and Hutchison had to intervene last 
time to establish a direction and reach a plan acceptable to all, but 
not before a year of wasted time and uncertainty. This cannot happen 
again.
    An enduring, stable vision for NASA should be set by the President 
and supported in Congress in a consistent manner that enables execution 
over timeframes that extend beyond a single Administration or 
Congressional election cycle. Budgets should be provided that are 
consistent with executing the direction and are stable over the 
timeframes required to execute the direction. It is NASA's job to 
define the manner in which to achieve the vision and then execute on 
the vision within the budget. An enduring vision for NASA should be 
more focused to better align with the current constrained budget 
environment, and the vision should be mission-driven. A focused, 
mission-driven vision that endures will allow NASA to maximize the 
returns to the American people for the resources provided. Finally, the 
vision should push to accomplish feats never before achieved by 
mankind.
    What NASA cannot afford to do is continue the trend of cancelled 
programs, rebaselining and seemingly random directional changes of 
objectives and priorities. These fits and starts have cost this Nation 
considerable effort, time and money with tremendous disruption and with 
minimal return.
    Maximizing the value returned from the budget provided means that 
NASA needs to examine how it can right-size its resources and 
infrastructure to efficiently execute a more focused mission. 
Preserving every capability NASA has acquired is simply not possible in 
a constrained budget environment. NASA itself must retool it's 
infrastructure to become a ``built to last'' organization that doesn't 
sink huge amounts of money into standing monuments that don't have the 
ability to adapt to future missions, large staffs that are sized to be 
all things to all people, and a large bureaucratic management structure 
that is unable to move with speed and agility. While the government is 
the only method to continue this long-term exploration initiative, it 
must not be immune to the known precepts of efficient and lean 
management so that the dollars being spent yield the most possible 
learning. Priorities must be chosen and decisions must be made on what 
capabilities should no longer be supported and what capabilities must 
be retained to accomplish the vision. We have created NASA to define 
the best way to achieve the vision with the budget available, not to be 
everything to all people.
    When our Nation first embarked on space exploration and leadership, 
the expectation was that we would incrementally and continuously expand 
the scope and reach of our presence over time--both robotically and 
with humans. As Jay Barbree said in his recent 5-part commentary, we 
must have ``an affordable, science-driven method of learning, moving 
steadily outward in logical increments.'' We must have clear missions 
and destinations--and then identify the capabilities that either 
already exist or need to be created in order to complete these 
missions. It's that simple.
    There is no one right solution to how NASA can achieve this 
incremental exploration and fulfill their charter--someone must choose 
and we as a nation have created NASA to do just that.
    NASA has determined that they need a heavy lift launch capability, 
and Space Launch System is the answer to that need. The Augustine 
Commission, in their review of NASA's Human Spaceflight Program, made 
the following statement: ``The Committee reviewed the issue of whether 
exploration beyond low-Earth orbit will require a ``super heavy-lift'' 
launch vehicle, and concluded that it will.'' Regardless of the exact 
mission architecture that is ultimately pursued, the heavy-lift launch 
capability that the SLS will provide is fundamental to its execution 
and must be pursued with utmost priority and speed. NASA's entire 
Exploration architecture is dependent upon its capabilities.
    SLS will be the most capable U.S. launch vehicle and, with the 
Orion spacecraft and modern ground systems, will enable new missions of 
human exploration across the solar system, as well as benefit high-
priority science missions. It leverages and builds upon past experience 
and technology. Now that an architecture has been established, it is 
imperative that it receive adequate funding and, in no way, follows the 
fate of the Constellation program. We have clearly seen the negative 
impact of inaction and indecision after the end of the Space Shuttle 
program: loss of momentum and direction, wasting precious financial 
resources, and a significant loss of critical space industrial base 
skills.
    The objective is to establish a heavy lift capability. We know how 
to do that reliably now, this is not the time to once again baseline 
new technology, of which little has really been identified anyway. This 
is the time to ensure we get beyond Earth orbit as fast as possible, as 
cost effectively as possible, and as safely as possible. Once we do 
that, then we can resume true exploration and the innovations and 
inventions necessary to push the boundaries and explore and live on 
other bodies.
    There has been a lot of talk about returning to the Moon, and SLS 
gives NASA the flexibility to do that, perhaps first sending robots, 
then humans. A continual incremental approach to exploration should be 
the norm. While humans explore the poles of the Moon, robots should be 
characterizing the environments on Mars and its moons. When humans 
finally explore the Martian system, robots can be exploring the icy 
depths of the vast oceans of Jupiter's moon Europa. We must recognize 
there is no end to this process, no victory dance followed by the 
abandonment of a vital innovation engine for the country.
    The hugely successful landing of the Mars Science Lab Rover 
Curiosity is the perfect illustration of this incremental development 
and exploration as well as the complimentary use of robots in space 
exploration. Curiosity will continue to rove around Mars in the months 
ahead potentially paving the way for humans, and SLS will be key to 
that incremental strategy for exploration.
    Both robotic and human exploration have their place within an 
overall space exploration program. Robotic exploration must lead human 
exploration in order to truly understand what technological problems 
have to be solved and which can rely on existing technology. While the 
use of humans for exploration might not yield the same marginal return 
in scientific data for the investment, the returns on technological 
innovation that benefit society are. NASA's exploration programs are 
not simply intended to return scientific data. The technologies 
developed to acquire the scientific data often represent even more 
valuable returns. These technologies are integrated into the 
capabilities of the U.S. companies that participate in NASA programs 
and increase their productivity and global competitiveness. 
Successfully placing humans into the harsh, unexplored environments 
associated with space exploration results in benefits to people back on 
Earth in ways that cannot be equaled by placing a robot into the same 
environment. These benefits include everyday technologies such as ear 
thermometers, heart rate monitors and fire retardant materials to 
computer microchips, plasma displays and aircraft collision avoidance 
systems.
    More intangible, but equally important, exploration is 
inspirational to the United States. And in this context, the returns 
from human exploration are far greater than robotic exploration.
    So it is clear, first and foremost, that NASA must be provided with 
an enduring and stable vision that can and will survive any unilateral 
attempts to jerk the wheel around as we pass through Administrations 
and Congresses. Once this vision is established we need to let NASA do 
their job. The Agency is uniquely qualified to organize and integrate 
the diverse and often biased inputs from industry, academic and 
scientific communities, international community, etc--and look at 
options, establish a direction and plan of execution consistent with 
vision and budget, and then actually execute it.
    NASA must also return to being a mission-driven organization. 
Technology and capability development without a clear mission use is 
misguided and generally inefficient in the same way that hammer and 
nail is useless without something to build. A clear mission provides 
alignment to all stakeholders and allows the most efficient use of 
scarce resources. NASA did not build the vehicles and technology needed 
to land on the Moon and then decide to go. The Nation, through the 
Administration and Congress, gave NASA a goal of landing on the Moon 
and NASA figured out how to do it. NASA did not build the space shuttle 
knowing what all 135 missions would entail. They knew they needed the 
capability to transport people and large payloads to build an 
international space station. We must return to that model.
    Finally, I'd like to close with a quote from President John F. 
Kennedy's 1962 speech at Rice University. I'm sure most of you know the 
quote by heart. He said, ``We choose to go to the Moon in this decade 
and do the other things, not because they are easy, but because they 
are hard, because that goal will serve to organize and measure the best 
of our energies and skills.'' I don't use this quote because I think we 
should live in the past or because I believe we should be reliving 
those glory days. I use it because as President Kennedy said doing 
``the hard things'' drives us to use the best of our energies and 
skills, which in turn creates the need and motivation to expand our 
boundaries. NASA's job is to do the hard stuff--constantly pushing the 
boundaries. We grow as a nation because it takes the best of our people 
and capabilities push the limits of our creativity and abilities 
leading to true innovation and inspiration. As such, Innovation and 
Inspiration cannot be goals of what NASA does and strives to do, but 
rather the result. Just as Curiosity's mission spawned innovation which 
inspires us all, sustained human exploration enabled by SLS and Orion 
will challenge us to future innovations we cannot even predict, but 
know from experience will keep us in a leadership position not only in 
space, but especially on Earth.
    Thank you again for the opportunity to address the Committee today. 
I look forward to responding to any questions you may have.

    Senator Nelson. Well, thank you all. All right. We are 
developing a rocket called the Space Launch System. We are 
developing a human capsule called Orion. All of this is 
happening while the average American thinks that the space 
program is over because they have attached the visible 
evidences of the space program naturally to the Space Shuttle 
over the course of three decades. And when the Space Shuttle 
was retired, that naturally leads people to the conclusion that 
it is over.
    And now we are ramping up this whole new system to get us 
out of low-Earth orbit. When Apollo was developed, other than 
the goal of getting to the Moon and back, it was also then 
utilized for other things, a thaw in the Cold War in the 
rendezvous and docking of a Soviet spacecraft and an American 
spacecraft, which was the forerunner to bringing all of this 
cooperation that we now share with Russia and our many 
international partners on the International Space Station.
    So my question to you all is, as we develop the SLS and 
Orion, what do you see as the full potential of that system? 
Mr. Maser, let us start with you. What would be some examples 
of the types of mission that the SLS and Orion would make 
possible?
    Mr. Maser. Well, certainly first and foremost is getting 
back beyond Earth--lower Earth orbit again. We have not been 
there in a very long time, and this will enable us to do that 
first and foremost, and start to try out and test all the new 
technologies that have developed and evolved since we have last 
been there. And also to leverage at least some of the--and you 
guys can speak to it better than I could--some of the human 
science that has been going on on the space station as we get 
out beyond for an extended period of time in the radiation 
environment and in other environments. I think initially that 
is what at first enables.
    There are a number of missions--I know asteroids have been 
brought up as a potential one. We have not identified one yet, 
and it looks like it is going to be a hard one to get to. So I 
think we need some fallback plans. And I know there are some 
discussions going on about other interesting points where there 
is gravitational equilibrium between various bodies where we 
could spend extended durations of time, some space, longer than 
we have ever spent before beyond lower Earth orbit, and learn 
more about how the human body reacts.
    I personally believe, though, to get us to full fruition, 
there is a lot about what Dr. Squyres talked about, is 
eventually we are going to need a lander. And eventually I 
think we need a series of missions that are incrementally more 
difficult. So you can just see there is a general pattern here 
that I think makes a lot of sense, is you have robotic 
precursor missions. Then you learn to live off the planet, 
whether it is in space first for a period of time, eventually 
on the Moon for a period of time. And once you have learned how 
to live off the planet, somewhere that is not too far away, 
then you can start moving to places further away that have been 
doing robotic exploration.
    But it never ends, and I think that is a point I was trying 
to make in my comments. It is not this--because you hear 
comments about we do not any more flag planting missions. It is 
not about one giant mission, you achieve a hurrah, and then you 
wonder what is next. You always know what is next. You are 
always working on it, and it is stable and predictable, and 
everybody knows what technology we need to achieve that.
    Senator Nelson. Just like we did in Apollo, which was an 
incremental mission, starting with Mercury, Gemini, Apollo, in 
an environment that we did not know anything about.
    Mr. Maser. Exactly.
    Senator Nelson. And eventually we went there. Let me ask 
Dr. Kennel, give us some examples of the types of science 
missions that would be enabled by either crewed or unmanned 
launches of the Space Launch System.
    Dr. Kennel. Beyond low-Earth orbit.
    Senator Nelson. Yes.
    Dr. Kennel. There are several. We have already had some 
precursor missions, for example, robotic sample returns from 
asteroids, which will give you some idea of the chemistry. 
There are lots of good asteroids.
    There is a distant, but important security goal that can be 
achieved by approaching an asteroid with a system of 
significant mass. It is known, for example, that from time to 
time, asteroids have hit the Earth--one 65 million years ago 
destroyed the environment for the dinosaurs. And if we are 
going to live for a long time as a civilization, you have to 
worry about Earth crossing asteroids.
    And it turns out that you can predict maybe 10 or 20 
passages before they actually hit the Earth when they are going 
to--and send a spacecraft there. You do not even have to nudge 
it; mutual gravity will move it out of its orbit. The proof of 
principle would be very useful, and you could get that done 
while you are doing some science. I think that the main 
argument for human beings has always been they are very good 
geologists. They can take a look at what they see and tell you 
in ways that an automated laboratory cannot.
    And so I think that the picture that I would have, and this 
is not in anybody's decadal report is: go to Mars. You want to 
go there? Go there. Missions of increasing sophistication. You 
might as well set a tough goal of sample return because that 
tests all the technologies for both landing and takeoff. The 
sample return gives you deep scientific knowledge. You might 
even have a couple of them to characterize the most reliable 
knowledge where you are going to land, and you go.
    Senator Nelson. And congratulations to the Curiosity crew--
--
    Dr. Kennel. Yes, indeed.
    Senator Nelson.--that indeed you are part of the forerunner 
of the first number of steps.
    And, Dr. Squyres, tell us what types of planetary science 
missions does the unique capability of the Space Launch System, 
this new big rocket that is evolvable in size, what does that 
provide?
    Dr. Squyres. Well, like Dr. Kennel, I am excited by what we 
can do at an asteroid. I was recently part of a four-member 
NASA crew--I was the one non-astronaut on the crew--that 
conducted a 2-week long mission at the Aquarius Laboratory in 
your home state of Florida, simulating the kinds of EVA, extra 
vehicular activity, tools, and equipment that one would use for 
exploration of an asteroid. And it got me very excited about 
what a human crew--a crew of human scientists, explorers, could 
do at an asteroid--on a mission that would be enabled by SLS.
    I think most importantly, heavy lift capability is 
essential for someday sending humans to Mars. I am a big fan of 
robotic exploration. I am a member of the science team for the 
Curiosity mission. But what our magnificent state-of-the-art 
Curiosity Rover can do in a day, you could do in about 45 
seconds. And what our magnificent Opportunity Rover has done on 
Mars in eight and a half years, you could do in a good week, 
week and a half, something like that.
    So what humans can do in the way of science on the surface 
of Mars far surpasses what can ever be done, in my view, by 
these wonderful rovers that I have and so many of us here have 
devoted our careers to building and operating.
    So I see SLS heavy lift and the ability to get humans 
beyond low-Earth orbit as fundamental to some of the most 
important planetary science that we have ahead of us.
    Senator Nelson. Senator Hutchison? And I might say that 
Senator Hutchison was key as we worked through the design of 
that NASA authorization bill to make the system evolvable, so 
that it starts out what we have the funds and the capability 
for now, but it can grow to whatever the needs of the mission 
are.
    Senator Hutchison. Well, thank you. That was certainly a 
joint effort, and the purpose was to have the technology in the 
shuttle that is going to go to and from the space station that 
would be transferable to the heavy launch vehicle with Orion, 
so that we maximize efficiency with our taxpayer dollars. And 
that was--that is what we have worked very hard to assure that 
NASA will do.
    When we talk about the importance of the robots and how 
exciting Curiosity is, nevertheless, Curiosity cannot come back 
with the samples. Is that only going to be able to be done when 
we can put humans there that can return or are we looking at 
another technology feat that would be an end run of trying to 
get the robot down and bring samples back?
    Dr. Squyres. Sample return can be conducted robotically, 
and indeed the mission that was recommended in the recent 
planetary decadal survey as the highest priority would have 
been the first step in a set of missions that would have 
robotically returned samples from Mars.
    Now returning samples from Mars is in no way a substitute 
for the magnificent science that can be done by actually 
sending humans there. But what it does is it lays the 
scientific groundwork. It enables us to design a program of 
future human exploration of Mars that is driven, that is 
motivated, that is informed by the scientific results that come 
from those returned samples, and gives the taxpayer the maximum 
return on the substantial investment that would be involved in 
sending humans to Mars.
    So we can bring samples back robotically. It is also 
possible to have humans play some role in that. You can 
envision many scenarios. You can envision scenarios in which 
samples are launched into orbit around Mars, and then are 
retrieved by a human mission that goes into Martian orbit and 
comes back to Earth. There are many, many ways to play this 
game. But it is quite possible to do a return sample from Mars 
completely robotically.
    Senator Hutchison. And is that a worthy goal that we should 
be looking at for one of the--I think all of you and we have 
talked about the stages. I think your message is a clear 
mission in stages so that you accomplish a mission, and that 
leads to the next mission, and we know what that is.
    So would we be looking at something that would go to Mars 
while maybe the Curiosity might still be working, but yet 
another one that might have the return capability that would be 
a next goal to achieve, again looking toward humans going to 
Mars as a goal down the road?
    Dr. Squyres. The Mars sample return campaign that was 
recommended in the planetary decadal survey would have kicked 
off with a launch in 2018. And it is still possible to do that.
    Different opportunities to launch a spacecraft to Mars are 
different from one another. Some are energetically more 
favorable than others. It turns out that 2018 is one of the 
best opportunities in the next few decades to actually land a 
substantial payload on the surface of Mars.
    And so it would be possible, given adequate funding, to do 
a mission in 2018 when Curiosity we hope will still be going. 
To put a rover on the surface that would select a carefully 
chosen cache suite of scientifically chosen samples, which 
would then be brought back to Earth by subsequent robotic 
missions further downstream. And that indeed was the primary 
recommendation of the most recent NRC decadal survey.
    Senator Hutchison. Looking at it from the congressional 
standpoint where we also have to look at our financial 
situation and put money that is available toward the best 
priority, is that the best priority use of our exploration 
funds to do that, or would it be better to not put the money on 
that returnable vehicle, but keep going toward the human 
vehicle as the next goal?
    Dr. Squyres. I would sincerely hope that it is not an 
either/or proposition. Certainly as you compare Mars sample 
return to other missions that could be conducted in the field 
of planetary science by NASA's Science Mission Directorate, the 
single highest priority, as I said, that was identified via a 
broad 2-year consensus building effort in the planetary science 
community was to begin this campaign of returning samples from 
Mars.
    Now that was not an attempt to compare the value of Mars 
sample return to the value of future human exploration--SLS, 
Orion, or anything else. That was not the study that was 
conducted.
    My sincere hope is that as has been the case over so much 
of NASA's history, robotic space exploration and human 
exploration can go forward in tandem with one informing the 
other, motivating the other, providing a basis that drives us 
to send humans to these places.
    So I sincerely hope that we can go forward with this sample 
return mission without it adversely affecting what I think is 
the critical development of SLS, Orion, and the other vehicles 
that we need to move humans out in deep space, including Mars.
    Senator Hutchison. Do we know from what we have up there, 
whether it's something orbiting Mars or the rover, that the 
atmosphere will not be dangerous for a human--obviously in a 
space suit? But do we know for sure, from what we have evidence 
of, that it will be safe for a person to actually land there 
and stay for a while?
    Dr. Squyres. We are in the process of obtaining that 
information right now. Curiosity has a number of instruments 
that will bear directly on that question.
    There is an instrument that is a radiation detector that is 
specifically there to characterize the radiation environment at 
the Martian surface as it would affect future human explorers. 
There is a capability to measure the composition of the Martian 
atmosphere to exquisite precision. We have an instrument that 
will tell us what minerals are present in the Martian soil, and 
you can infer from that what would be the effect of breathing 
that stuff, that kind of thing.
    So we are right now--this is a great example of how these 
robotic missions inform the process of sending humans, just as 
back in the early days prior to Apollo, there were missions 
that were sent to orbit the Moon to land on the Moon, the 
Surveyor missions to characterize the compaction state of the 
soil. What happens when footpads touch down on it? Was the 
lunar module going to sink out of sight? We answered those 
questions with robotic precursors. We are doing the exact same 
thing on Mars right now.
    Senator Hutchison. OK. I want to ask you, you said that we 
should prioritize the dollars that we have toward the best 
achievable goals in space exploration. And I think--I believe 
all of you have stated that you are for robotics, and you are 
for human, and you do not think they are mutually exclusive.
    Here is my question. Is NASA's mission too broad to be able 
to fully fund the priorities, and should we in the next NASA 
authorization look at splitting NASA, so that--we are now 
National Aeronautics and Space Administration. Should we, as an 
example, look at space exploration and put aeronautics 
somewhere else? That is just one example, or are there other 
examples? So that is a twofer.
    Should we look at splitting NASA, or is the aeronautics and 
space function so closely intertwined that they are stronger 
and more appropriate together, even though we are spreading 
dollars now pretty thinly along with the science mission that 
is so important, like the Webb and the Hubble.
    So I'd like your suggestions as scientists on that issue.
    Dr. Kennel. With regard to--there are other ways to slice 
up the piece. But with regard to aeronautics, it is performing 
several functions for the government, and the FAA in 
particular, that nobody else is. And actually, the amount of 
money that you would get for it and that you could devote to 
exploration would be so small, that I do not think it is worth 
the turmoil and disruption that would occur in a program that 
is already pretty small.
    As far as the rest of NASA is concerned, I believe that the 
way the science program is funded at about the $5 billion 
level, gives us a shot at leadership in each of the fields that 
we are pursuing. And I think that is the criterion, and that we 
have several that--well, it gives us a shot at leadership, and 
each one that we are pursuing.
    There is one area I think that is underfunded, which would 
be the utilization of the space station. And that actually is 
going to be critical in two ways. First of all, it will prove 
to people that we are still doing things in space, and second, 
there are a number of critical basic science things that need 
to be learned to do the space technology of exploration. And 
just simply learning how fluids, and pumps, and various other 
things like that, behave in space where there is no gravity, 
will inform the design of systems that will go beyond low-Earth 
orbit. That is just one example.
    So I think that the science program would suffer 
tremendously if it were cutoff from the human and made separate 
from the human space sight enterprise.
    Senator Hutchison. Any differing views, or is everyone----
    Dr. Kennel. These are my views based on my experience.
    Senator Hutchison. And are you basically saying, and I 
would like any other view, that we are better off with NASA as 
a unit as it is, and there is not any part of NASA that you 
would jettison in order to get more of the money for the focus 
issues that we all agree are so very important.
    Dr. Kennel. I think you could look at each of the programs 
and ask what should we not do in order to do something new in 
the future. But at this level of just, you know, the basic 
elements of NASA, I do not see any value in separating them at 
the present time.
    Mr. Maser. Yes, that was going to be my comment is, as Dr. 
Squyres said, with the limited budget we have, we are asking 
NASA to be all things to all people. And so the first step in 
my mind would be, what are true priorities? And at some point--
I mean, in business we do this all the time. I get requests for 
my research and development effort. Generally every year the 
requests come in at twice my budget. And so we go through and 
decide, you know, these are the priorities for us, and these--
you know, we call it the water line. Anything below that does 
not get funded. If something above it goes away or does not 
work out, then it can buy its way back in. But we make those 
hard choices.
    So the first step would be is, have we really made those 
hard choices and set a water line? And what then falls below it 
from a priority standpoint?
    But then the question comes, your question was, should we 
split it off somewhere else and have them not do it? If we 
still think it is important and someone else is doing it, we 
are still not saving any money. So if the objective is to work 
with a limited budget, I am not sure just splitting it off and 
asking someone else to do it will save that.
    And so, Dr. Squyres, you suggested we have some choices, 
and I agree. One of them I think maybe we have to fix some 
priorities. One of the other choices was maybe some of this 
effort could be shared with international collaboration, and so 
it reduces the total burden on one agency in one nation to fund 
it themselves. And we would have to decide which areas are 
relevant for that.
    And then the third--you gave four choices, but those are 
the two that jumped out at me. But a third one we have not 
talked much about, but we in industry have worked on, is giving 
more results for less dollars. And so we have focused as an 
organization on how do we become as efficient as possible, and 
for every dollar--taxpayer dollar we spend through our 
customers and not just NASA--we work for the Air Force also--
how can we provide more for that limited number of dollars? Are 
we organized properly? Do we have the right footprint or square 
footage for what we need and who we need to be in the future 
going forward? And I think that is a legitimate question to 
ask.
    Senator Hutchison. Well, before we go to Dr. Squyres, the 
reason I opened the question of should we take some part of 
NASA that is considered maybe not synergistic with the purposes 
that we believe science, aeronautics, and space, could it go to 
another place where it could be done more efficiently because 
it matches better?
    So the Department of Energy maybe for some of the energy 
science that we are using the Space Station for or something in 
the Department of Defense for aeronautics?
    Dr. Squyres. Right.
    Senator Hutchison. I don't know, but that is one way of at 
least looking at it. But if you are getting down to the 
priorities then, make suggestions on what you would put in the 
lower category from the scientific standpoint without the 
political overview. Are there programs within NASA that would 
get enough money over to space exploration or science to make 
it worth looking at lowering the priority?
    I know you, Dr. Squyres, mentioned that you have to 
prioritize, and you have. So is there a scientific view of what 
should be lower priority where you could add to the space 
exploration side?
    Dr. Squyres. Sure. I would like to actually make two 
remarks in response to your question. First of all, let me just 
say a quick word about aeronautics.
    In my time as Chairman of the NASA Advisory Council, I have 
personally come to the opinion that the aeronautics program is 
really one of NASA's shining jewels. It is a small part of the 
agency. It is the first ``A'' in NASA. It is a small part of 
the agency financially.
    But if you look at NASA's budget and you ask yourself what 
are the things that the agency does that most directly benefit 
the taxpayers in their daily lives, it is hard to find anything 
better at NASA than their aeronautics program. And I fear that 
disrupting that program, taking, trying to rip it out of the 
place where it has found such a good home and place it 
somewhere else could be detrimental to what I think is one of 
the best things that NASA does.
    With respect to science prioritization, the decadal surveys 
that are run by the National Research Council are pure 
exercises in scientific prioritization. And when we conduct a 
decadal survey, we look at, oh, gosh, dozens of mission 
concepts. And we winnow them, and we winnow them, and we 
prioritize and prioritize. And we draw on inputs from the 
scientific community that go on literally for a couple of 
years.
    And then what we bring forward are the few highest-priority 
missions that have survived that really pretty brutal down-
select process. So the missions that you see in the decadals 
are the highest priority, the ones that result from a very, 
very intensive and very rigorous prioritization process.
    Senator Hutchison. Yes, Dr. Kennel?
    Dr. Kennel. Yes, if I can add to that? One of the new 
things that we did in this round of decadal surveys was to try 
to impart some budget and engineering realism to our 
recommendations. And so, in addition to scientists, we included 
engineers, and we got independent cost estimates so that we 
looked at the practical realities as well as the ideal 
scientific goals.
    And our recommendations were a result of those two types of 
considerations. And in the event, what happened was we 
recommended many fewer missions than we had in the past. And in 
fact, in our astrophysics survey for the entire decade, there 
were a number of smaller missions in the explorer program, but 
only one lead candidate.
    And so, there was winnowing that took place that we thought 
was fairly rigorous. The budget is going to winnow us even 
further. But when you look at those leadership recommendations 
and look through them, then it is still important, I believe, 
to try to stick to the goals that they laid forth because those 
were analyzed for both scientific leadership purposes and 
realism.
    Senator Hutchison. Let me ask you this. You mentioned 
better utilizing the Space Station as one of the things that we 
ought to do because there may be a term limit on that of 2020. 
And one of the things that we put in our authorization bill was 
to make the U.S. part of the Space Station a national 
laboratory so that outside interests--other agencies, 
corporations, universities--could actually put experiments 
there and use it.
    My question is, what other ways would you have to further 
utilize and better utilize the Space Station that we certainly 
invested heavily in producing, and it has now been extended, 
which is great. But it is extended even though we can't get to 
it on our own--with our own juice yet. But we will in the next 
few years.
    And what would you suggest that we ought to be doing to 
better utilize it?
    Dr. Kennel. Well, first of all, let me just state that when 
the Augustine Commission basically recommended that we extend 
the lifetime of the station to 2020, we also suggest an 
indefinite extension in the sense that if people are finding it 
useful in 2018, they will decide to continue.
    And it is that indefinite time horizon that is the 
important one that would enable people from the non-NASA 
community and from the outside world to have enough knowledge 
that the resource will be there that they can then begin to 
plan long-term utilization programs. And so, I think being open 
about the date that we close the station is terribly important.
    Second, if you really look at it, the Europeans are doing a 
much better job of utilizing the station that we built than we 
are at the scientific level. And the reason is they weren't 
burdened with the financial difficulties of building it, and so 
they planned for the long term.
    And they have developed stable scientific communities that 
look at the--that all of the things that you can do in low 
gravity that you cannot do on the Earth, whether it is fluid 
behavior, biological behavior in particular, and they have 
basic science research as well as engineering going forward.
    Financial exigencies and program changes eviscerated our 
community in that field, and that happened about 2005 or 2006. 
Our report recommends that we rebuild that community, and we 
are very pleased that NASA has made a good faith effort to do 
so.
    They have created an office. And with their limited 
resources, they are trying to rebuild a community that has lost 
faith, to be quite frank, that the station will be there for 
them.
    That is why the NGO is needed to make it easy for them to 
participate. The long horizon is important for them so they can 
be secure that they can commit their reputations on station. 
And quite frankly, the funding that that office has is far less 
than the funding we used to have.
    And so, I think a requirement for the U.S. is for U.S. 
scientists to begin to use it. And I think by 2020, if you 
begin to see U.S. scientific results coming out at the same 
international level that we are used to in all of the other 
fields of science, then I think people will no longer say that 
the space program is dead because we don't have the Shuttle. 
They will say, oh, America is doing lots on its Space Station.
    But right now, the Europeans are getting more science out 
of the Space Station that we built than they did--than we are.
    Senator Hutchison. Dr. Squyres?
    Dr. Squyres. I have a specific suggestion regarding Space 
Station utilization. If you are, say, a university researcher 
who is interested in doing research in a microgravity 
environment, there are substantial barriers to trying to get an 
experiment onboard the Space Station.
    There is a level of review and oversight, what some 
researchers might view as excessive attention to minute details 
of experiments that are daunting to many university 
investigators. It is just too hard to get through that process 
and get your hardware onboard the Space Station.
    So, anecdotally, there are researchers who just choose not 
to try it because they don't want to jump over those hurdles. 
Now the reasons for the existence of those hurdles are 
absolutely sound, and they are crew safety. And crew safety can 
and must never, ever be compromised.
    But now that we have years of experience in operating the 
Space Station, I think it might make some sense to look 
carefully at whether or not there is a gap that could be 
widened between what is really necessary to safely fly 
something on the station and what the current set of rules, 
requirements, reviews, and oversight demand.
    And if that gap could be widened a little bit, reducing the 
barrier to getting universities, getting other organizations to 
fly experiments on the Space Station, just making it easier to 
do business in that precious national laboratory, I think there 
could be some benefits to the Nation.
    Senator Hutchison. Thank you. That is very helpful.
    Dr. Kennel. And if I could add, this barrier that he so 
cogently described is the one that we thought the independent 
NGO organization could overcome. That what you really need is a 
professional organization that can take the requirements and 
hopes of a space-naive community and translate them into terms 
that the operational community can tolerate and work through 
all of the issues and not make the poor scientist out there who 
has never before worked in space try to deal with it.
    So you need a professional opportunity translation 
organization, and that is why we thought--and there is an 
example in the Space Telescope Science Institute that has 
guided my thinking. But something like that is needed to 
actually translate opportunity into reality on station 
operations.
    But at the end of the day, the provision of access to the 
zero, low-gravity will be an attraction to many scientists if 
they can actually get at it.
    Senator Hutchison. OK. Let me ask you, I have a couple of 
other questions. One is on the--you said we should have more 
not just participation, but real use with our international 
partners in both, obviously, the Space Station, but in space 
exploration. Do you have any specifics on what more we should 
be asking and realistically expect from our international 
partners?
    Dr. Squyres. Sure. Let me give you two examples.
    In the area of robotic space exploration and particularly 
sample return from Mars, there are several necessary elements 
to a sample return campaign. One is a rover that can land on 
the surface and collect and cache a suite of samples. Well, 
that is something we know how to do pretty well at NASA. So 
maybe we don't need any help with that one.
    But you also need a vehicle that can get those samples off 
the surface and into orbit around Mars. And then you need a 
vehicle that can find that little spacecraft that you have 
launched off the surface, that can rendezvous with it and bring 
the samples back to Earth.
    On-orbit rendezvous, planetary orbiters, these are things 
that many potential international partners know how to do and 
know how to do well. And so, I think there is significant 
potential. Indeed, that was the intention of the planetary 
decadal survey recommended sample return campaign was that it 
would be conducted in partnership with other agencies, 
particularly the European Space Agency.
    Senator Hutchison. But why aren't we doing that?
    Dr. Squyres. The reason we are not doing that at the 
present time is the cuts that were projected to the Fiscal Year 
2013 planetary budget made it impossible, projecting the budget 
forward, to carry out that hoped-for mission in partnership 
with ESA. And so, NASA walked away from the partnership, at 
least temporarily. My hope is that that can be corrected in the 
future.
    With respect to human exploration, I made the point in my 
opening remarks that we have two magnificent pieces of what you 
need for truly enabling deep space exploration, the Orion and 
SLS. But Orion and SLS alone will not get you to the surface of 
the Moon. They will not get you to an asteroid.
    There are other vehicles--a lunar lander, a deep space 
habitation module that can support a crew for the time that it 
takes to actually get to an asteroid, in-space propulsion 
capabilities. That sort of thing. I think those are all 
potentially components of a true deep space exploration system 
to which international partners could potentially be invited to 
contribute.
    And so, in my opening remarks, I stressed that there is a 
big piece of the puzzle missing. We say we want to go to an 
asteroid. We say we would like to maybe go back to the Moon. We 
certainly want to go to Mars. But right now, what we have is 
the ability to launch a lot of mass off the surface of the 
Earth with SLS, and the ability to support a crew of 4 for 21 
days with Orion.
    Those are magnificent and necessary capabilities. They are 
necessary, but they are not sufficient. And so, I think looking 
to capable, committed, international partners, as we have done 
so spectacularly well with the International Space Station--I 
mean, what a triumph that has been--is something we should be 
looking at.
    Senator Hutchison. Yes, Dr. Kennel?
    Dr. Kennel. I would just like to add to that. The 
International Space Station partnership is a miracle of 
international relationships. It has survived budget ups and 
downs, our accidents, various defaults on the part of other 
partners, and yet it continues to this day as 14 nations 
working together on the station.
    And if you think, for example, that someday that the world 
will go to Mars led by the United States, then you are going to 
need something like the Space Station partnership, and the 
confidence building that has already taken place, to also 
participate in that mission.
    And so, there is a policy issue that you may wish to 
consider. That is that, as people renegotiate the International 
Space Station partnership, you could add to it some goals that 
are related to the development of the technology for beyond LEO 
exploration to the Space Station partnership so that they begin 
to develop an awareness of the really great challenges and 
technical challenges that will face all of us as we try to get 
to Mars, and we begin to enlist them in the effort.
    And that could--I don't know whether that would serve as a 
precursor for the partnership that we would build, but it 
certainly would be a confidence builder. And I think it would 
help start the process off in a way that is useful to the 
United States.
    Mr. Maser. One other comment I would add to that is we are 
all aware that the Space Station was nearly canceled, right, 
within one vote. And a lot of people have said one of the main 
reasons it went through is because of our international 
commitments.
    And I would argue, a big part of my argument has been about 
an enduring, stable vision of incrementally increasing 
challenges. And if we committed to that and committed to a 
collaboration internationally for that over the long run, 
perhaps that is a model in which national commitments to each 
other create some stability and can get us out of this cycle of 
starting and canceling things because it goes beyond any one 
administration or any one congressional period because the 
commitments are multi-decade.
    Senator Hutchison. I think what you all are doing is 
actually putting forth the long-term, clear goal that you 
discussed as the first policy directive. Because it would take 
certainly to get our international partners to re-up into this 
bigger coordination effort the assurance that we wouldn't have 
fits and starts.
    And one of the things in my time here that I have worked 
with administrations that are Democrat and administrations that 
are Republican and have tried to say you can't just say we are 
going to stop doing something that we have international 
partners already investing in to a great degree from their own 
budgets. Their percentage of the budget they are putting in is 
as big as the percentage of our budget.
    And we have got to be a reliable partner in order to keep 
an alliance like that going. And if we are talking about the 
kind of commitment that you suggest, which is putting different 
vehicles' capabilities together so that it doesn't all fall on 
us, nevertheless, we are going to have to be reliable and show 
that we are not going to get cold feet mid-way through this and 
all of a sudden stop our part.
    And I think that is a worthy goal for the clearly-stated 
visionary goal for the future, and I think you have sort of put 
together a nugget that really could be the basis for the next 
authorization bill.
    Last question, and then I will turn it back over to the 
chairman. And that is we have seen really an emergence of 
commercial capabilities. A lot of our U.S. tax dollars have 
gone into helping the commercial operators begin to get the 
capabilities to at first do this taxi to and from the Space 
Station.
    Are you at all concerned about the money that goes into the 
commercial operation taking from the future heavy launch with 
the discussion that we have just had? Or do you think that we 
can do both efficiently, having the taxi to the Space Station 
and perhaps allowing it to be extended, as Dr. Kennel 
suggested?
    Because you have the taxi capabilities going forward beyond 
2020, and maybe it could maybe not pay for itself exactly, but 
certainly offset much of the expense of holding on to the Space 
Station. While we, at the same time, focus our efforts at NASA 
on the next generation, the beyond low-Earth orbit exploration.
    Dr. Squyres. I think if we are smart about it, we can do 
both, and let me give an example. We were just talking about 
the importance potentially of international partners bringing 
pieces to the puzzle to create a more robust deep space 
capability. But the resources to do that within ESA or 
wherever, they have to come from somewhere.
    If you look at ESA's, for example, or some of our other 
international partners' commitments to future Space Station 
activities, some of them have to do with resupply. Some of them 
have to do with providing ``up mass,'' getting stuff up to the 
Space Station.
    If, as a result of investment in commercial capabilities--
the recent Dragon mission to station being an example, and more 
to come, I hope--if we develop a robust capability here in this 
country to do that resupply, to get that up mass to the Space 
Station, it could offload some of these foreign partners from 
some of the resupply that they are currently committed to 
providing. And they could take those resources, and they could 
put them into something else that would take us deeper out into 
space.
    So I think if we are smart about how we play this game, 
there are efficiencies that could come from commercial taxis, 
if you will, to the International Space Station that could 
provide benefits that could then be felt in the deep space part 
of what NASA does.
    Senator Hutchison. Thank you.
    Dr. Kennel?
    Dr. Kennel. Thank you.
    There is no long-term future unless you provide value in 
the short term. And so, the trips to the station are providing 
value in the short term. And the commercial enterprise, if it 
proves to be successful I think is going to broaden the social 
base of and technology base for the larger enterprise to come. 
So I think that is a useful thing.
    There is another dimension of this problem that you may not 
become aware of. But recently, with the cancellation of the 
Delta rocket system, the space science community has become 
concerned about the lack of availability of mid-scale rocket 
systems for scientific spacecraft.
    So there is a kind of unfocused hope that if the 
commercials are successful, then we will also be able to tailor 
some of our experiments to those capabilities. I haven't quite 
seen the study yet, and I think it is delicate at the 
commercial level to do it. But I do believe that there is a 
possibility that a successful commercial industry will also 
help space science.
    Mr. Maser. I guess my comment is, first and foremost, I 
think we all agree we need access to station from the United 
States. And so, given that, both cargo and crew. And given 
that, we want to do it as affordably as possible.
    And Neil deGrasse Tyson said low-Earth orbit is where 
hundreds have gone before. And I think the point behind that is 
we have been doing that long enough. We should be able to do it 
very cost effectively and potentially buy those services in a 
different manner than we have traditionally procured them as a 
NASA owned and operated vehicle. So I am onboard with that 
completely.
    And certainly, cargo as a separate launch vehicle and a 
separate system we can take more risks. We can afford a little 
bit of failure in there, and I think that is good.
    The real question in my mind is, as you shift to 
commercial, we are not going to be as risk tolerant. You have 
the lives of people onboard, and you have the Space Station 
that you absolutely have to be careful with from that 
standpoint also.
    And so, when I stand back and look at it, my question and 
comment would be are we absolutely certain that the approach we 
are taking is the quickest, most cost effective, and safest way 
to take things to station, especially people? And how many 
systems do we really need under that context with the amount of 
market there is out there?
    Because when I look at particularly commercial crew, when I 
stand back and look at it, if station were to end in 2020, the 
commercial crew people would end up, if there is two providers, 
would end up launching each once a year for maybe 3 years or 4 
years or something. So maybe station will be extended, but the 
real question is for the most effective use of dollars, how 
many commercial crew providers do we need in the long run is my 
question.
    Senator Hutchison. Well, we have certainly tried to lower 
the number of commercial operators that are going to get the 
Federal seed money just because I think we agreed that that was 
just more than we could take away from SLS and Orion.
    But now they are at two and a half. So----
    Mr. Maser. And a half. That was positive movement. I think 
that is good to get to the next point, and I think as it 
evolves to the next decision point, I think clearly we need to 
look at how many real missions are there out there, and how 
many suppliers are appropriate?
    Senator Hutchison. Well, the goal is to have one. So that 
is the goal, and we are looking at the efficiency and making 
sure we are not paying just as much as we would had we kept it 
all in NASA. And I think the down-select, which we pretty much 
forced, is a step in the right direction.
    But hopefully, there is one more down-select, and based on 
the merit, whoever wins will be the one, hopefully.
    Well, thank you very much. This has been very, very 
helpful, and I think that it really will inform us as we go 
forward into the next authorization period.
    And fortunately, even though I am leaving, there will be 
others who will be staying and the staff will, hopefully, stay, 
and we will use this very helpful information to look at the 
importance of a goal that can be achieved with international 
cooperation. I like what you have said.
    Thank you very much.
    Mr. Maser. Thank you.
    Senator Nelson. Thank you, Senator Hutchison. And thank you 
again for your leadership over the years on this topic that you 
are very, very passionate about.
    I just want to say, Mr. Maser, that the value of 
competition is that instead of your rocket company being the 
only one in town, you get sharper, your prices get sharper if 
there is a competitor there. And that is the whole idea of this 
competition for the way to get to and from the International 
Space Station. So over time that the bringing of the cost per 
pound to get to orbit comes dramatically down.
    I want to ask you all on our topic of exploration beyond 
Earth orbit, doesn't it appear right now that with conventional 
technology that we couldn't do--assuming that we can build a 
lander and all of that and that we know what we are landing on 
and we have returned a sample so we can know what to expect. 
But right now, it is going to take us 8 to 10 months to get 
there.
    Once you are there, then the planets are out of alignment 
that you have got to wait a long, long time before you can 
bring the crew back to get the planets closer in alignment. So 
aren't we really talking about going to Mars in the 2030s for 
the first crewed mission that we have got to develop a whole 
new propulsion system that is going to get us there a lot 
quicker?
    What do you think about that?
    Dr. Squyres. Personally, I think that it is possible to do 
a human mission to Mars using advanced, but chemical propulsion 
systems. I don't think we need a dramatically new technology. 
There are technologies that will be beneficial. One can imagine 
aero-capture deceleration technologies that could be used at 
Mars, for example.
    Certainly for some of the transfer stages that we might 
want to use to get crews to Mars, having the ability to do in-
space storage of cryogenic propellants would be a good thing. 
But I think if you were to conduct a poll in the astronaut 
office right now of who would be willing to sign up for a 
mission of that duration to Mars, you would get a lot of 
takers.
    So I personally believe that the biomedical issues that are 
associated with long-term exposure to microgravity and the 
effects on a crew on the way to Mars and back are being 
addressed now pretty impressively on the International Space 
Station. I think that is one way in which ISS is really 
contributing to future human exploration.
    So I don't think you need a totally different approach to 
in-space propulsion in order to safely get humans onto the 
surface of Mars, have them be effective while they are there, 
and get them back. But there are technological developments, 
and I think in-space storage of cryogenic propellants is very 
high on that list that will be enabling in that regard.
    Senator Nelson. Dr. Kennel?
    Dr. Kennel. I am not going to challenge Steve's judgment 
because I actually agree with it as things look at the present. 
However, what I would like to say is that the commitment to the 
goal probably is going to stimulate all sorts of technological 
innovations. People are going to try things to try to shorten 
the flight time.
    They are going to try various biomedical remedies and so 
forth because they know the goal will still be there. And soon 
as you make it clear that we are going to eventually go beyond 
low-Earth orbit, I think you will find people willing--just 
like the entrepreneurial space launch industry, you will 
probably find people willing to take a risk on new 
technologies, and experience tells us that every now and then 
there is a breakthrough.
    And, that that may accelerate. The goal will be for those 
technologies to accelerate the time that we shove off from low-
Earth orbit and actually make the first mission. And so, I 
think setting the goal is terribly important for eliciting 
potential innovations.
    Senator Nelson. I want to wrap up the hearing with just a 
couple of questions about the funding and the certainty of the 
funding. Now we are living in uncertain times with the 
budgetary situation as it is. If you look at NASA as a Federal 
agency, compared to other Federal agencies, it has fared quite 
well. And yet what is the future?
    Sequestration, this meat cleaver that is hanging over the 
Federal budget at the end of the year, was never intended to 
take effect because it was the meat cleaver to force the House 
and Senate joint super committee to come to agreement, and we 
know what happened a year ago. That didn't happen, and so we 
are facing those consequences.
    But I think we will work ourselves through that and avoid 
the sequestration. But still the uncertainty of the funding of 
the future.
    And Mr. Maser, we are getting ready, probably tomorrow, to 
enact another appropriations bill called a continuing 
resolution, taking the existing funding from this past fiscal 
year and applying it probably for the next 6 months. That 
creates uncertainty for NASA programs and contractors. How in 
the past have the continuing resolutions affected NASA programs 
and contractors?
    Mr. Maser. Well, this year it might be a good thing, I 
don't know, relative to what we have been looking at 
potentially. But generally, what we look for is a view to what 
funding is going in out-years, and we size and organize around 
those.
    And then as a budget isn't approved, you go into a 
continuing resolution, activities and scope and funding for 
things you had planned on, staffed for, and organized for don't 
materialize, and you are forced to move people around and shift 
priorities. And in some cases, you can't adjust your costs fast 
enough that you just have to pass on the cost increase to the 
customer in the short run.
    In the past few years, there has been probably I think it 
has even been more discontinuous than the transition from the 
end of the Apollo program to the Shuttle program because there 
was actually quite a few years of overlap in development 
activity. So even though Apollo was ending, Shuttle had started 
years before its first launch, and it continued to keep going.
    And so, that actually provided--even though it was much 
reduced in terms of what it was during the Apollo era, you 
pretty much knew where it was, and it wasn't discontinuous. In 
the past 3 or 4 years here, we have seen the end of the 
Shuttle, cancellation of Constellation, no decision at all 
about what we were going to do next.
    Finally, a year ago, a decision was made. But every year--
--
    Senator Nelson. Two years ago.
    Mr. Maser. It was 2 years ago? I thought--well, the 
authorization was 2 years ago, but the SLS was a year ago, the 
actual decision on the SLS, I believe.
    Senator Nelson. No, sir. The authorization in 2010 set the 
course, the blueprint, for the SLS and set the parameters.
    Mr. Maser. That is true.
    Senator Nelson. Now you are talking about the funding of 
it. Well, the funding--and there again, I thank Senator 
Hutchison because she is on the Appropriations Committee as 
well. The funding started to implement the authorization bill 
for the development of the SLS and Orion.
    And of course, in appropriations process, you always have 
these pulls and tugs. And then, with the overall attempts at 
slashing Federal spending on everything, that has complicated 
it.
    Go ahead and make your point.
    Mr. Maser. That is true. So----
    Senator Nelson. I just wanted to correct that.
    Ms. Maser. Thank you.
    So the ultimate comment I would make is every year in 2010, 
2011, and 2012, we have made reductions down to the size we 
felt would be appropriate for our business going forward, 
starting in 2010.
    As we get toward the end of the year and we look towards 
what is going forward in the future in terms of budgets, how 
many is being allocated funding, et cetera, we had to make 
additional reductions, and this is my third year of reductions. 
And every year I say once I get down to that level, I will have 
a stable employment level about which I can manage fluctuations 
with overtime and basically temporary workers.
    And so, that is the intent we are doing this year. We are 
continuing to reduce staff. We are down about 30 percent in 
staff over the past 3 years. And the continuing resolution, 
sequestration, and the lack of stability creates a tremendous 
amount of nervousness within the organization, within our 
people about what the future holds for them, and it creates a 
big challenge for attraction, retention, and motivation going 
forward.
    So we can organize and size for any future. But we would 
like to see a view as to what that future looks like and some 
stability for the long run.
    Competition is fine. We are happy to compete, and if we 
lose, we will make adjustments. We would love to go compete for 
those items that we put out there in the future. But to have 
them not funded and never even be able to compete for them or 
to compete and win and then have them canceled is a real 
challenge for our organizations.
    Senator Nelson. Dr. Kennel, I would suggest that in your 
position with the NRC's Space Studies Board, you might want to 
have them look at this topic--the impacts to the space program 
of the different funding scenarios, including sequestration, 
even though this Senator doesn't think sequestration will go 
into effect. Or if it did go into effect because of lack of 
agreement by December 31st, it will quickly be overturned in 
the new Congress.
    So I would suggest that you all take up that topic fairly 
soon.
    Dr. Kennel. We have given this some thought, and it is 
quite clear that giving the decisionmakers a sense of what is 
at risk at different levels of reduction will, I think, be very 
useful. It will be difficult, I think, for us to do it over the 
next 3 months. But I think over the longer term, we can look at 
levels of cuts or changes in budget and how we might respond, 
and we would do so with reference to the goals thus far that we 
have set forth in our decadal surveys unless we are directed to 
look at it differently.
    But I think we could--knowing our goals, we could say what 
we would do under different scenarios.
    Senator Nelson. Dr. Kennel, it would also be helpful if you 
could report from the NRC to us on the Committee on an 
evaluation of the administration's plan under the NASA 
authorization bill for the exploration program with regard to 
Mars. That would be very helpful.
    Dr. Kennel. Yes, I would be delighted to consider that. We 
would have to work it out very carefully, of course. But we 
very much want to see what the new NASA committee is saying. We 
very much want to evaluate it.
    Senator Nelson. Good.
    Senator Hutchison, any further?
    Senator Hutchison. No, thank you.
    Senator Nelson. Well, this has been most illuminating. 
Thank you all.
    The meeting is adjourned.
    [Whereupon, at 4:10 p.m., the hearing was adjourned.]
                            A P P E N D I X

       Prepared Statement of Hon. John D. (Jay) Rockefeller IV, 
                    U.S. Senator from West Virginia
    Fifty years ago today, President Kennedy gave a now famous speech 
at Rice University highlighting his challenge for our nation to go to 
the Moon and back. Within that turbulent decade, Neil Armstrong set 
foot on the Moon's surface, in the Sea of Tranquility. We honor the 
legacy of President Kennedy, Armstrong, and all those who worked to 
achieve the triumph of the Moon landing as we continue to pursue the 
frontiers of science and technology. President Kennedy's challenge was 
motivated by the need for the United States to be the world leader in 
science and technology. Although the global environment has changed 
much since the Cold War, the need for our country to remain a leader in 
science and technology has never been greater.
    There are many ways to explore--whether it is by probing the depths 
of the oceans, peering into the eternity of the cosmos, or unraveling 
the marvels of the human body--exploration pushes the boundaries of 
human understanding and knowledge.
    Today we are here to talk about the exploration of space. As 
President Kennedy said of space, ``Its hazards are hostile to us all. 
Its conquest deserves the best of all mankind.'' Whether we explore 
with humans or robots, we face challenges that push us to the limits of 
our science, engineering, and ingenuity.
    We saw that ingenuity proven when we landed a rover the size of a 
small car on the surface of Mars just over a month ago. The Curiosity 
rover touched down on the Red Planet after a so-called ``seven minutes 
of terror'' culminating in a graceful lowering to the surface by a 
``sky crane.'' This spectacle was watched by at least 4.7 million 
people around the world, inspiring numbers of students in their science 
and math studies so that they will go on to lead our next incredible 
journeys of exploration.
    There are many ways to explore space--and we have a variety of 
destinations between the Earth and Mars to consider. What is most 
important is that we continue exploring, continue probing the frontiers 
of science and technology, and continue inspiring and educating our 
next generation.
                                 ______
                                 
    Response to Written Questions Submitted by Hon. Bill Nelson to 
                           Steven W. Squyres
    Question 1. What flight rate for SLS would be required for a human 
mission to Mars and, beyond funding to buy the additional hardware, are 
there any major obstacles to NASA from being able to achieve such a 
flight rate?
    Answer. The flight rate currently envisioned for SLS is 
substantially lower than for any previous human-rated launch system 
developed or used by NASA. I do not consider this low flight rate to be 
a technical show-stopper for an eventual human mission to Mars. Rather, 
my concern is that such a low flight rate could make it difficult to 
maintain flight team proficiency and, especially, program momentum. So 
what constitutes an appropriate flight rate for SLS is more a matter of 
opinion than objective engineering fact. Personally, I would like to 
see the SLS flight rate doubled. Other than funding, I see no major 
obstacles to achieving this.

    Question 2. What types of science and technology objectives could 
be accomplished with a human mission to the Mars system that stops 
short of an actual landing on the surface?
    Answer. There are several, including (but not limited to) the 
following:

  <bullet> Validation of the propulsion, life support, and other 
        technologies required for safe transport of crews to and from 
        cis-martian space.

  <bullet> High-bandwidth real time tele-operation of robotic vehicles 
        on the martian surface, allowing substantially improved science 
        return.

  <bullet> Collection and return to Earth of sample caches that have 
        been gathered on the martian surface and placed into orbit by 
        robotic vehicles.

  <bullet> Exploration of the martian moons Phobos and Deimos, which 
        are probably captured asteroids. The surface soils of both 
        moons should also be rich in materials that were ejected from 
        the martian surface by impacts.

    Question 3. NASA's funding for FY 2012 was well below what was 
authorized by this committee, as is the amount requested by the 
President for FY 2013 and the amounts reflected in the FY 2013 
appropriations bills that have yet to be enacted.
    Please evaluate the sustainability of NASA's exploration program 
given the current budget trajectory.
    Answer. I fear that NASA's long-term program for human exploration 
of space may not be sustainable under the current budget projections. 
These budget projections yield an unprecedentedly low flight rate for 
SLS and Orion relative to past human-rated systems, no capability for 
exploration of the lunar surface or beyond cis-lunar space, and little 
margin for unexpected difficulties.

    Question 4. Given the current budget trajectory for NASA, what 
specific types of contributions would international partners need to 
make for us to achieve a sustainable deep space exploration program?
    Answer. In my opinion, international partners could contribute most 
to a sustainable program of deep space exploration by providing 
necessary vehicles that NASA currently has no funding to develop. One 
such vehicle could be a deep-space habitation module capable of 
supporting a crew for the extended period of time necessary to travel 
to an asteroid, explore it, and return to Earth. Another could be a 
lunar lander.

    Question 5. If we continue to see a reliance on stop-gap, short-
term spending measures moving forward, what strategies can be employed 
in lessening the impact of such measures on NASA's exploration program?
    Answer. Year-to-year volatility in NASA's funding is one of the 
most serious challenges the agency faces. I cannot envision a strategy 
that will completely mitigate this problem if it persists. I would 
suggest, though, that forging strong international partnerships could 
help. If NASA's international partners have a significant and 
unwavering commitment to a joint program of exploration, that 
commitment could provide a stabilizing influence. Of course, 
maintaining a partner's commitment in the face of NASA's year-to-year 
uncertainties is itself a challenge.

    Question 6. We know that NASA's plate is full with a balanced 
mission portfolio and priorities in developing the SLS and Orion, 
supporting and fully utilizing the ISS, and launching a successful 
James Webb Space Telescope, not to mention continuing the agency's 
aeronautics research, Earth science, technology development, education, 
and space science efforts.
    Given our exploration and science priorities, if NASA's budget 
remains on its current flat trajectory, what capabilities should the 
agency reconsider to free up its resources?
    Answer. In my opinion, NASA's commitments to aeronautics, space and 
Earth science, technology development, and education should continue 
strongly and indefinitely. The current plan for the International Space 
Station calls for it to be decommissioned in 2020. The eight years of 
on-orbit research that will take place between now and then should reap 
much of the potential remaining benefits of ISS. Just as was the case 
when the Space Shuttles were taken out of service, the decommissioning 
of ISS on the planned schedule should free up resources that can be 
devoted to other human spaceflight activities.

    Question 7. One of NASA's design reference missions for a crewed 
visit to the Martian surface calls for plutonium-238 to power surface 
hardware, for example. Is plutonium-238 likely to be needed for a 
crewed mission to Mars? If so, is the Administration's plan to restart 
production of plutonium-238 sufficient to support such a mission in the 
2030s?
    Answer. Plutonium-238 could be useful for some aspects of a long-
term Mars exploration architecture, especially one involving both 
humans and robots. However, I do not believe that it is a hard 
requirement, nor that availability of Pu-238 should be viewed as a 
limiting factor for future human exploration of Mars.
    That is not to say, however, that production of Pu-238 is 
unimportant. In fact, it is crucial for many of NASA's future robotic 
deep space science missions.
                                 ______
                                 
    Response to Written Questions Submitted by Hon. Bill Nelson to 
                        Charles F. Kennel, Ph.D.
    Question 1. What types of science and technology objectives could 
be accomplished with a human mission to the Mars system that stops 
short of an actual landing on the surface?
    Answer. There would be a substantial gain in our understanding of 
the human health and technical challenges of long-duration space 
missions if humans were to travel to the Martian system without 
actually landing on the surface. This was certainly true for the early 
Apollo missions to the Moon, but given the vast distances involved and 
large costs of any mission to the Martian system, a comprehensive 
analysis of the scientific, technological, and operational value, as 
well as public appeal, of a staged approach to going to Mars is needed.
    Some have proposed that some preparation for an eventual human 
mission to Mars could be accomplished by means of remotely operated 
robotic assets placed on Mars' surface. In some scenarios, the humans 
operating the surface assets are in orbit around Mars, or on the 
surface of a Martian moon (for example, Phobos). These locations would 
have a short communication time to Mars' surface, and may make human 
decision making more effective. Some of the assets on the surface, such 
as rovers for geological exploration or cached samples of Martial 
material, could be devoted to science.
    Since it is much cheaper to land on and return from Phobos rather 
than on Mars' surface, the Phobos option could be financially 
attractive. Returns of samples of material from Phobos would provide 
valuable information about the evolution of the Mars system. The Phobos 
option was discussed informally during the deliberations of the 
Augustine Commission, but has not had rigorous review.
    The first priority of the recent SSB Decadal Survey of Planetary 
Science, ``Visions and Voyages'', is a mission that collects and caches 
samples of Martian soil for eventual return to Earth and comprehensive 
study in the laboratory. The return could be accomplished by relaying 
the samples to astronauts in orbit or on a satellite, or by robotic 
liftoff direct to Earth. The constraints placed on the science achieved 
by the different operational scenarios need to be assessed.
    Finally, to my knowledge there has been no independent assessment 
of the relative value to science of a human presence ``on the ground'' 
and remotely-operated robotic exploration. Certainly such a study may 
provide useful guidance to assess this relative value while also 
considering the technical risk and affordability of various scenarios.

    Question 2. NASA's funding for FY 2012 was well below what was 
authorized by this committee, as is the amount requested by the 
President for FY 2013 and the amounts reflected in the FY 2013 
appropriations bills that have yet to be enacted. Please evaluate the 
sustainability of NASA's exploration program given the current budget 
trajectory.
    Answer. The SSB has not formally assessed the sustainability of 
NASA robotic and human exploration in the current budget environment. 
The upcoming study by the NRC's Committee on Human Spaceflight, which 
was requested in the NASA Authorization Act of 2010, will consider the 
factors that contribute to the long-term stability of human 
exploration. In my recent testimony, I argued that a stable commitment 
to long-range goals is essential to program stability in unstable 
budget circumstances.
    One of the principal outcomes of the Augustine Commission was to 
extend the life of the International Space Station (ISS) to at least 
2020. In my personal view, this decision enables human spaceflight to 
be sustainable until a program of deep space exploration is up and 
running. Key to the future support of ISS will be effective utilization 
by the United States. In this regard, SSB's recent decadal survey, 
``Recapturing a Future for Space Exploration: Life and Physical 
Sciences Research for a New Era'' recommends ways to reconstruct the 
U.S. science program, which was effectively shut down during ISS 
construction. NASA is making good-faith efforts to renew the program 
within available resources but its progress needs to be reviewed. In 
particular, there has been no provision to date for a mid-term review, 
by SSB or otherwise, nor is there a way to provide continuing 
independent scientific advice, as our standing committees do for NASA's 
Science Mission Directorate.
    On the robotic side, SSB's recent decadal surveys include 
``decision rules'' that were an outcome of a community consensus 
process. They were designed to sustain the stability of NASA space 
science programs should actual budgets differ from those provided to 
the decadals by NASA. Even though the current budget for NASA science 
differs substantially from what the decadal committees envisioned, the 
decision rules provide a reasonable menu of options for maintaining 
NASA science programs in a scientifically valid way.
    The Space Studies Board is committed to providing long-range advice 
that is adaptable to short-term changes. We on the SSB are beginning to 
think about how to review mid-term progress in the implementation of 
each of our decadals. Sustainability is obviously a key issue and we 
will discuss to what extent our mid-term assessment committees should 
review the decadal decision rules in the light of recent events. The 
next mid-term review will be for Astrophysics in 2014/2015.
    Our upcoming SSB workshop on ``lessons learned'' from the recent 
round of decadals will provide the first opportunity for the scientific 
community to discuss how to carry out the next round. One of the most 
salient issues will be how to recommend programs that are resilient to 
budgetary and technical change. At the present time, there is no plan 
for a more formal consideration and broader dissemination of the issues 
brought up in the workshop. I believe there could be benefit in a more 
deliberative exercise that translates the core messages from the 
workshop into new guidance for the NRC, the Congress, and the agencies.

    Question 3. If we continue to see a reliance on stop-gap, short-
term spending measures moving forward, what strategies can be employed 
in lessening the impact of such measures on NASA's exploration program?
    Answer. Once again the NRC has not spoken on how the stop-gap 
measures you describe might affect the human spaceflight program but 
history tells us that not funding large-scale expensive technical 
endeavors at the required profile only leads to increased cost in the 
long run. Furthermore, measures like continuing resolutions make it 
difficult to start new initiatives or discontinue programs that are no 
longer are needed. It seems to me that if budgetary turbulence is 
prolonged beyond the near future a significant re-assessment of the 
agency's portfolio and implementation strategy may be required. The 
size and resiliency of its program must be made commensurate with the 
size and variability of its funding.
    On the science side of exploration, I can only repeat that I remain 
convinced the consensus of the scientific community cannot be discarded 
in these difficult fiscal times. The decision rules the communities 
provided in their decadal surveys should guide us as we try 
collectively to lessen the negative impact budgetary turbulence is 
having on the conduct of science. Where those rules are no longer 
apposite, it seems to me the community should be asked, through the 
NRC, to consider new or modified rules that would enable the essence of 
its science priorities to be maintained.

    Question 4. We know that NASA's plate is full with a balanced 
mission portfolio and priorities in developing the SLS and Orion, 
supporting and fully utilizing the ISS, and launching a successful 
James Webb Space Telescope, not to mention continuing the agency's 
aeronautics research, Earth science, technology development, education, 
and space science efforts. Given our exploration and science 
priorities, if NASA's budget remains on its current flat trajectory, 
what capabilities should the agency reconsider to free up its 
resources?
    Answer. This is indeed a difficult question; its answers will be 
even more difficult. NASA pursues the Nation's interests in civil space 
and aeronautics on behalf of all of us, and it is a political decision 
on how to allocate funds to that pursuit. I do expect the upcoming NRC 
report on NASA's strategic direction may provide some guidance as to 
the types of decisions that would have to be made to maintain a clear 
and compelling strategic plan for the agency, although we should note 
that committee was not charged to recommend any one particular path.
    Because of SSB's recently completed decadal surveys, and NRC's 
forthcoming studies on NASA's strategic directions and on the goals of 
the human space exploration program, the NRC is in an excellent 
position to support the Government as it grapples with NASA's future 
directions. Once again, I can only emphasize personally how important 
it is for the Congress, Administration, and NASA, to agree to support a 
clear and feasible set of long-term goals. With a consistently 
supported policy framework, both the human exploration and science 
communities will know better where to find new opportunities and where 
when necessary to make cuts.
                                 ______
                                 
    Response to Written Question Submitted by Hon. Amy Klobuchar to 
                        Charles F. Kennel, Ph.D.
    Question. Mr. Kennel, in your testimony, you noted that we need to 
not only support inspiring leadership projects, like Curiosity, but 
also the smaller and equally innovative and scientifically useful and 
by doing this we will be investing in the capacity to innovate. 
American innovation is key to our economy and I think we need to 
continue to understand that investment is key to innovation. Could you 
talk about maybe a few of those innovations or missions NASA is 
involved in that may not have the lime light but are necessary for the 
understanding of our world and surrounding universe?
    Answer. Looking at NASA science overall, there is a remarkable 
concurrence of views among the disciplines in space science: a vibrant 
program of small and medium class missions is critical to finding 
innovative ways to explore the frontiers of each discipline.
    Each NASA science division maintains a program of small missions 
designed to address important scientific goals on a timescale and at a 
cost significantly less than those of flagship missions (such as 
Curiosity). These missions go by various names, such as the Discovery 
missions flown by NASA's Planetary Science Division and the Small and 
Midsize Explorer missions sponsored by NASA's Astrophysics and 
Heliophysics divisions.
    The planetary science decadal survey commented that:

        ``Discovery missions can respond rapidly to new discoveries and 
        changes in scientific priorities. Rapid (3 year) mission 
        development is feasible, providing opportunities for student 
        participation, rapid infusion and demonstration of technology, 
        and a rapid cadence of missions pursuing science goals. These 
        missions are executable using relatively small launch 
        vehicles.''

    Examples of such missions include the MESSENGER spacecraft, 
currently undertaking pioneering observations in orbit about the planet 
Mercury, and the planet-finding Kepler mission, which has 
revolutionized our understanding of planetary systems around other 
stars.
    The astrophysics survey said of explorer missions:

        ``Explorers have delivered a scientific return on investment at 
        the highest level over the past two decades. The three 
        astrophysics Medium-scale Explorer (MIDEX) missions launched to 
        date--the Wilkinson Microwave Anisotropy Probe (WMAP), Swift, 
        and the Wide-Field Infrared Survey Explorer (WISE)--have 
        provided high-impact science for a combined cost significantly 
        less than that of a single flagship mission.''

    In making an augmentation to the explorer program its number two 
priority in the ``large scale'' list of priorities the Committee wrote:

        ``[the] high ranking is motivated by the Committee's view that 
        expanding the Explorer program is a very effective way to 
        maximize scientific progress for a given outlay.''

    The decadal survey in solar and space physics just published says:

        ``the explorer program's strength lies in its ability to 
        respond rapidly to new concepts and developments in science and 
        to forge a synergistic relationship with ongoing, larger, 
        strategic missions. The explorer program creates a highly 
        competitive environment in which teams led by a principal 
        investigator (PI) rapidly capitalize on advances in technology, 
        enabling cutting-edge science at moderate cost.''

    Projects in this class of missions are cost capped and chosen via 
peer-reviewed open competition. Teams of scientists, engineers and 
technologists in academia, industry and government laboratories submit 
proposals. The open competition, together with the discipline imposed 
by the cost cap, encourages an entrepreneurial spirit. Winning 
proposals often pioneer the use of innovative approaches to maximize 
scientific return while minimizing technical and financial risk.
                                 ______
                                 
    Response to Written Questions Submitted by Hon. Bill Nelson to 
                               Jim Maser
    Question 1. What flight rate for SLS would be required for a human 
mission to Mars and, beyond funding to buy the additional hardware, are 
there any major obstacles to NASA from being able to achieve such a 
flight rate?
    Answer. I don't know an absolute minimum number or rate of flights 
that would be required for SLS to support human missions to Mars. The 
number of flights will be dependent on what type of mission 
architecture is ultimately chosen and how it is implemented. I do know 
that a predictable and steady cadence of flights, supported with the 
proper funding and, most importantly, an enduring vision is key to the 
success of a Mars mission and SLS. As long as there is a long term 
vision that sustains the momentum, the industrial base will adjust and 
size to the program. In my opinion, the SLS program would benefit in 
terms of affordability, skill retention and a healthy industrial base 
if there were flights paced at no less than one per year with 
additional launches based on the specific mission requirements. What 
absolutely cannot happen is the current trend of starts, stops, and 
redirection and budget uncertainty slowing the program. History has 
proven that under these conditions, critical know-how is lost, plant 
capacity and capabilities are shuttered and a gap is created between 
the generations of the workforce with little or no hope in transferring 
these very perishable skills. From our vantage point there are no major 
technical obstacles for NASA to be able to achieve a sustainable flight 
rate as long as the enduring vision and the funding for the mission are 
truly committed to and sustained in action, not just in words.

    Question 2. How does the technological challenge of sending humans 
to the Martian system, but not landing on the surface of Mars, compare 
to the challenge of a human landing on the surface?
    Answer. First, let me state that there is no `right way' to conduct 
a mission to Mars. The chosen objectives for the mission, the timeline, 
and the technology development required to achieve the mission 
objectives have to be weighed against the economic costs, the 
sustainability of the program, and the level of risk we are willing to 
accept. Whether we land directly on the surface of Mars or first send 
humans only into Martian orbit, the technical challenges and required 
development are significant. Actually entering and subsequently leaving 
the deep gravity well of the Martian surface will require a multitude 
of additional systems and greatly increases the amount of payload that 
has to be sent to Mars.
    Mounting a mission to Mars will require many new systems and 
associated technology to be developed. Bringing together all of the 
newly developed systems without prior flight experience would be 
enormously challenging. Every technological ``first'' associated with 
the mission makes it grow in cost and schedule because adding even the 
smallest detail has to be coordinated with the entire system to 
understand every interaction and its potential implications. Many of 
these systems can be developed and demonstrated in an incremental 
approach closer to home. Having demonstrated systems available before 
conducting a mission to Mars will lower the ultimate cost and risk of 
executing the mission. With the continuously advancing mission, these 
huge challenges could be more easily managed through incremental 
missions of increasing complexity. This would allow us to build on the 
lessons learned and technology advances achieved from every mission.
    There are many different scenarios or paths to achieve a Martian 
landing. Determining the right path is what NASA does best. An 
incremental approach to technology development and flight demonstration 
allows the technology to be created when needed while being able to 
leverage all the previous experience and lessons learned to make the 
next mission safer and more robust. This incremental approach worked 
for putting the first Americans on the Moon. The Mercury and Gemini 
programs and the early Apollo flights developed and demonstrated almost 
all of the systems required to land on the Moon before Apollo 11 
ultimately landed.

    Question 2a. Is a crewed mission to orbit Mars a necessary 
precursor to a crewed landing on the surface?
    Answer. As mentioned in the previous question, a crewed orbital-
only mission is not absolutely needed as a precursor to a crewed 
landing, but as an incremental step, it would be safer and more cost-
effective and perhaps represents the more practical way to go. Space 
exploration needs to be a continuous journey, comprised of many 
incremental steps guided by an enduring vision. And that journey should 
extend well beyond the first human Mars landing, so that these greatest 
of achievements can be celebrated with the knowledge that the next 
incremental step will advance the frontier even farther.

    Question 3. Please evaluate the sustainability of NASA's 
exploration program given the current budget trajectory.
    Answer. NASA's funding for FY 2012 was well below what was 
authorized by this committee, as is the amount requested by the 
President for FY 2013 and the amounts reflected in the FY 2013 
appropriations bills that have yet to be enacted. Even with a stable 
but flat lined budget, NASA's buying power will be effectively reduced 
by 30 percent just due to inflation through the first flight. This 
inflation-adjusted budget decrease, as far as I can tell, is what is 
pushing the first crewed flight of the Orion/SLS out to 2021. The 
budget to sustain the exploration programs is ever creeping towards the 
minimum threshold of sustainability, and on its current trajectory will 
be there very soon. We will then be destined to repeat history, adding 
to the $21 billion in NASA programs that have been cancelled in the 
past two decades.
    As much as I'd like to be an optimist, I have been in the space 
business for far too long not to recognize the trend of the current 
exploration program. And it is not because it is an unsustainable idea. 
I personally think the SLS is the right capability needed to return 
America to the forefront of space exploration and fulfill NASA's 
charter. However, for some time now and especially since the end of the 
Space Shuttle program, NASA has seemingly suffered from a lack of an 
overarching, enduring vision for leadership in space science, 
technology and exploration. The Administration cancelled Constellation 
then established new priorities and directions such as landing on an 
asteroid and funding a commercial space capability consisting of 
multiple providers--without clearly identifying a supporting market or 
demand. NASA's human spaceflight program was essentially put in neutral 
for two years as a result of this churn.
    In general, a shrinking budget forces schedules to be slowed down 
to achieve only the objectives for which you have funding. This makes 
the objectives you pushed off more expensive to complete as time 
marches on and your fixed costs remain. The cycle is self reinforcing 
until the groundswell of public opinion calls for the cancellation, as 
such a program could appear to be significantly overrun and years 
behind the original plan, all of which could have been avoided if the 
funding was provided as promised when the plan was created and directed 
towards other objectives for which they were originally intended and 
not siphoned off and re-directed to less critical priorities. This was 
the major lesson from the Constellation program as reported by the 
Augustine Commission. The Constellation program fell behind schedule 
and started to go over budget because the promised funding was not 
realized.

    Question 4. If we continue to see a reliance on stop-gap, short-
term spending measures moving forward, what strategies can be employed 
in lessening the impact of such measures on NASA's exploration program?
    Answer. As long as NASA is provided an enduring vision that does 
not shift along with each new short-term spending measure, I think 
NASA's exploration program could continue to survive incremental 
funding measures. Remember, an enduring vision for NASA will also 
inform the Administration and Congressional appropriators and keep them 
from making short sighted reductions to NASA exploration funding.
    Beyond an enduring vision, I think there are other strategies that 
could be employed. The first strategy that comes to mind is that the 
United States should lead collaborative international efforts in future 
human space exploration. The expense of human space exploration, today, 
can no longer be borne solely by one nation if we hope to expand human 
presence beyond low Earth orbit. It is in the best mutual interests of 
the United States and its allies and partners to pool resources, 
knowledge, and capabilities for a common human space exploration vision 
to try and offset government's short-term spending measures.
    The international community has shown a willingness to follow the 
United States' lead, as evidenced by the International Space Station. 
However, that willingness to follow has faltered as the United States 
has been unable to provide a consistent direction to our international 
partners that can withstand budgetary and political cycles. If NASA is 
given a consistent, focused strategic direction that it can execute, 
the international community will follow.
    The United States should not cede critical strategic access-to-
space capabilities to foreign entities in the interest of 
collaboration. The collaboration should be more bi-lateral with both 
money and physical products flowing in both directions. The best 
opportunities for true collaboration are in-space and Beyond Earth 
Orbit exploration.
    In addition to international contributions/participation to 
counteract stop-gap, short-term spending measures; clearly defined 
smaller increments of the overarching exploration plan should be 
established to create higher probability of successfully completing 
``bite-sized'' steps rather than being financially stretched by the 
much larger overarching plan. The increments can be tailored to match 
budgetary constraints and take advantage of contributions by the 
multiple international participants. However, a very important part of 
each increment will be selling why it is an important step in 
exploration, how it supports the overarching plan, and how all 
participants benefit.

    Question 5. Given our exploration and science priorities, if NASA's 
budget remains on its current flat trajectory, what capabilities should 
the agency reconsider to free up its resources?
    Answer. It is unrealistic to expect that NASA's annual budget can 
be substantially increased in the near-term, but I believe much of what 
NASA wants to do can be accomplished with the current budget. Rather 
than look for more budget, it is more important that NASA establish a 
focused, enduring vision for exploration and science that integrates 
international resources throughout and assumes that long-term funding 
will become the normal appropriation process. This also means that NASA 
needs to examine how it can right-size its resources and infrastructure 
to efficiently execute a more focused mission. Preserving every 
capability NASA has acquired is simply not possible in a constrained 
budget environment. Just as private industry must adapt to changing 
customer requirements and budgets, NASA must choose priorities and make 
decisions on what capabilities should no longer be supported and what 
capabilities must be retained to accomplish the vision. We must instill 
NASA with some urgency to make the tough decisions necessary to 
position them to successfully fulfill the focused, enduring vision.
    I would ask that inflation adjustments be considered for NASA's 
exploration budgets to maintain a flat budget in real dollars. As I 
pointed out earlier, it is my understanding that a flat budget 
represents a 30 percent loss of buying power for NASA through the first 
flight of Orion and SLS. Simply providing adjustments for inflation 
could reduce the gap between the first flight of SLS in 2017 and, based 
on the current flat line budget, the first crewed flight in 2021.
                                 ______
                                 
    Response to Written Question Submitted by Hon. Amy Klobuchar to 
                               Jim Maser
    Question. Mr. Maser, you mentioned some of the commercial 
technological benefits we've already seen as a result of use on past 
missions, such as heart monitors. Are there already technological 
innovations coming from the Mars Curiosity project that may be 
commercialized for use in our everyday lives? Secondly, what are some 
of the foreseen innovations with the potential for commercialization 
that would come out of human crewed missions beyond LEO?
    Answer. First, yes. My company provided the launch vehicle rocket 
engines that propelled Curiosity on its way to Mars and built the 
nuclear power source that is supplying the uninterrupted power to the 
Mars Curiosity rover for the next decade. The technology and designs 
used in several subsystems of those rocket engines are now being 
applied to several clean energy development programs intended for wide 
commercial use. As much as I'd like to see nuclear powered cars to get 
my gasoline bill down, I doubt this will become a reality in the near 
future or at least until we have fully automated driverless cars, which 
in fact could be a spin off from Curiosity.
    The innovation that enabled an SUV sized vehicle on Mars to drive 
using advanced sensing and avoidance algorithms could easily find 
commercial applications. I can only speculate that some of that 
wonderfully complicated technology is being used on Google's driverless 
automobile today and could find it into my car sometime in the future. 
NASA has been working some ``self-healing'' concepts to reconfigure 
electronic systems at the chip level, using something called field 
programmable gate arrays (FPGA), which previously had been used for 
circuit prototyping. The NASA team has tested multi-hardware units 
linked wirelessly together, letting them represent systems such as a 
Mars lander and rover combinations. The team intentionally set up 
malfunctions in the multi-unit system and then let the system try first 
to heal itself by reprogramming its own trouble circuits and, failing 
that, try to get back in business by firing up backup, redundant 
circuitry. The next step, if both attempts fail, is for another system 
in the multi-unit group to pick up the workload of the faltering 
system. If that second unit fails, then the remaining units pick up the 
slack. And so on. The key is that all of this repair work and 
redundancy happens without human intervention.
    Although NASA may not have used some of this new technology on 
Curiosity, it likely will in the near future and offer numerous 
opportunities for commercial spin offs in commercial and remote 
controlled aircraft, and automotive applications. Even if the Curiosity 
rover technology is not directly being used for this application, I 
would say the chances are some of the young engineers working on this 
project were taught at Caltech by the same Professors who double as JPL 
scientists or taught by a professor who collaborated in some small way. 
Or perhaps a young student read a paper or saw a demonstration or now 
future students saw that incredible landing which inspired them to 
study robotics and science. And they will be the ones that 
commercialize this investment. It is these intangible affects that are 
difficult to quantify but are absolutely necessary to drive our 
economic engine and keep America as the absolute technological leader 
in the global marketplace.

                                  <all>

</pre></body></html>
